<html>
<title> - HONORING AMERICA'S FALLEN HEROES: AN UPDATE ON OUR NATIONAL CEMETERIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





 HONORING AMERICA'S FALLEN HEROES: AN UPDATE ON OUR NATIONAL CEMETERIES

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON DISABILITY ASSISTANCE
                          AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, MARCH 8, 2012

                               __________

                           Serial No. 112-50

                               __________

       Printed for the use of the Committee on Veterans' Affairs







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                  U.S. GOVERNMENT PRINTING OFFICE

73-294                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JON RUNYAN, New Jersey, Chairman

DOUG LAMBORN, Colorado               JERRY McNERNEY, California, 
ANN MARIE BUERKLE, New York          Ranking
MARLIN A. STUTZMAN, Indiana          JOHN BARROW, Georgia
ROBERT L. TURNER, New York           MICHAEL H. MICHAUD, Maine
                                     TIMOTHY J. WALZ, Minnesota

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.











                            C O N T E N T S

                               __________

                             March 8, 2012

                                                                   Page

Honoring America's Fallen Heroes: An Update On Our National 
  Cemeteries.....................................................     1

                           OPENING STATEMENTS

Chairman Jon Runyan..............................................     1
    Prepared Statement of Chairman Runyan........................    28
Hon. Jerry McNerney, Ranking Democratic Member...................     2
    Prepared Statement of Hon. Jerry McNerney....................    29

                               WITNESSES

Hon. Steven Muro, Under Secretary, National Cemetery 
  Administration, U.S. Department of Veterans Affairs............     4
    Prepared Statement of Hon. Muro..............................    30
Ms. Kathryn Condon, Executive Director of Army National 
  Cemeteries Program, U.S. Department of Defense.................     6
    Prepared Statement of Ms. Condon.............................    36
    Executive Summary of Ms. Condon..............................    39
Hon. Raymond Wollman, Deputy Secretary, American Battle Monuments 
  Commission.....................................................     7
    Prepared Statement of Hon. Wollman...........................    40
    Executive Summary of Hon. Wollman............................    42
Mr. Ray Kelley, Director, National Legislative Service, Veterans 
  of Foreign Wars................................................    17
    Prepared Statement of Mr. Kelley.............................    43
Mr. W. Ashley Cozine, Executive Board Member, National Funeral 
  Directors Association..........................................    19
    Prepared Statement of Mr. Cozine.............................    44
Mrs. Melissa Lofaso, Casework Assistant Manager, Tragedy 
  Assistance Program for Survivors...............................    21
    Prepared Statement of Mrs. Lofaso............................    46
    Executive Summary of Mrs. Lofaso.............................    49

                        QUESTIONS FOR THE RECORD

Hon. Jon Runyan, Chairman, Subcommittee on Disability Assistance 
  and Memorial Affairs to AMVETS:................................    50

 
 HONORING AMERICA'S FALLEN HEROES: AN UPDATE ON OUR NATIONAL CEMETERIES

                              ----------                              


                        Thursday, March 8, 2012

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 1:36 p.m., in 
Room 340, Cannon House Office Building, Hon. Jon Runyan 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Runyan, Stutzman, Turner and 
McNerney.

            OPENING STATEMENT OF CHAIRMAN JON RUNYAN

    Mr. Runyan. Good afternoon and welcome, everyone. This 
oversight hearing of the Subcommittee on Disability Assistance 
and Memorial Affairs will now come to order.
    We are here today to examine the current state of our final 
resting place for our Nation's fallen heroes. These cemeteries 
and monuments span across our country and the entire world, 
from my own district in New Jersey with the Beverly National 
Cemetery; across the Atlantic to Normandy, France; and across 
the Pacific with Clark Veterans Cemetery in the Philippines. 
Some of these cemeteries instantly bring to mind the triumph of 
courage in conflicts fought around the globe for liberty and 
freedom. Others hold memories of bravery only known to God and 
to those who died on the field of battle. Yet each of these 
national shrines have this in common: They are all honored 
tributes to our service men and women who are now resting in 
peace.
    I would like to welcome our witnesses today who oversee our 
fallen heroes in these many sites, wherever they may rest now. 
Under Secretary Muro is here on behalf of the National Cemetery 
Administration, which oversees 131 national cemeteries 
nationwide. Ms. Kathryn Condon is here representing the Army 
National Cemeteries Program, which includes perhaps the most 
recognizable site of our honored fallen in Arlington National 
Cemetery. Finally, Deputy Secretary Wollman represents the 
American Battle Monuments Commission, whose mission is to serve 
our country's fallen heroes and missing in action where they 
have served overseas.
    I would note that the National Park Service was also 
invited, but has neglected to attend this hearing, to my 
disappointment and to the certain regret of the families who 
they serve. It is my hope that they have corrected the problems 
in the administration and upkeep of their cemeteries that this 
Subcommittee uncovered in the last Congress.
    This aside, I would like to begin the substance of this 
hearing on a positive note. I believe that every person in this 
room agrees we have a solemn obligation to cherish our veterans 
memory and heroic actions by holding ourselves and our 
organizations to the highest standards. I also believe that 
everybody here is as passionate as I am about our mutual duty 
in honoring our fallen heroes as best as we know how with all 
the resources we can muster.
    Overall I believe every organization represented here does 
a great service to our Nation's service men and women and their 
loved ones. With that said, over the last several months, 
numerous problems have surfaced across our Nation's cemeteries, 
and they have not been isolated events or confined to one 
agency or another. From Arlington to Fort Sam Houston to Dover 
and beyond, the tragedies and missteps have continued to mount 
month after month. Most recently a series of audits conducted 
by NCA have revealed to date that there are over 240 mismarked 
or unmarked graves and 8 veterans or loved ones buried in the 
wrong place. Again, this was not a failing of just one national 
cemetery, but 13 NCA cemeteries nationwide.
    Ladies and gentlemen, there is a pattern here, and I find 
it totally unacceptable. And we have a duty to ensure to our 
Nation's veterans and their families, that these problems will 
be repaired and never occur again. Granted, most of these 
misfortunes originated many years ago, and in many cases 
decades ago. Only recently were most of these problems 
identified. And I am pleased to see solid progress being made 
to mend the harms across this Nation so that our fallen service 
men and women can finally rest in peace; however, this is no 
excuse for the problems that remain. Therefore, it is important 
to recognize that over the last several months, we have set a 
new standard of excellence for ourselves. It is one which 
recognizes just as our fallen service men and women once fought 
for our liberties, we must be diligent in fighting to ensure 
that our fallen heroes remain at peace, and that no family will 
ever have to suffer a second burial.
    I am eager to hear the further progress that has been made 
in these regards and what actions are being taken to ensure 
that these same issues never resurface at any of our national 
cemeteries. Furthermore, I am looking forward to hearing the 
advancements with respect to ensuring greater accessibility to 
veterans burial options, as well as the measured progress 
outlined in the National Shrine Commitment.
    I would now like to call on the Ranking Member for his 
opening statement. Mr. McNerney.

    [The prepared statement of Hon. Runyan appears in the 
Appendix]

            OPENING STATEMENT OF HON. JERRY MCNERNEY

    Mr. McNerney. Well, I would like to thank you, Mr. 
Chairman, for today's hearing entitled ``Honoring America's 
Fallen Heroes: An Update on our National Cemeteries.'' One 
hundred fifty years ago, in 1862, President Abraham Lincoln 
created a National Veterans Cemetery System and dedicated it 
for the soldiers who shall die in the service of this country. 
President Lincoln's words and our steadfast appreciations are 
as important today as they were during the Revolution and Civil 
Wars. Ensuring a proper burial for our fallen heroes is a 
solemn obligation.
    This hearing follows up on a September 24, 2009, hearing in 
which the Subcommittee examined the VA cemeteries' policies and 
operations, as well as those of other cemeteries under our 
jurisdiction, primarily Arlington National Cemetery and the 
American Battle Monuments Commission. This Subcommittee 
conducts oversight over these systems to ensure that all 
eligible veterans are served by an optimal burial option with 
the highest quality possible as their final place of repose.
    I want to recognize former Chairman Bob Filner's efforts to 
direct the NCA to change its requirements for establishing a 
national cemetery from a 170,000 veterans and 75-mile radius to 
80,000 veterans in a 75-mile radius. With this change, the NCA 
met the burial needs of 89 percent of the total veteran 
population in the fiscal year 2011.
    I appreciate the VA's decision, outlined in President 
Obama's fiscal year 2013 budget, to change service area 
guidelines to better accommodate the needs of rural and urban 
veterans. These changes will increase the number of veterans 
served by a federally implicated burial option.
    Despite the progress we made in the previous Congress, we 
can and must do better, particularly as it pertains to wait 
times for burials and quality control at NCA facilities. I 
think we are all aware of the numerous errors related to the VA 
contractor-executed raise-and-realign project revealed after 
the VA's audit of 93 of the 131 cemeteries. As I have said in 
this Subcommittee before, mistakes like these are unacceptable. 
They are as avoidable as they are awful. They rob us of time 
that could otherwise be spent ensuring that our Nation's heroes 
are properly laid to rest. More importantly, these mistakes rob 
family and friends of peace of mind they deserve. I hope to 
hear a positive update from the NCA on the resolution of these 
errors and prevention efforts moving forward.
    Further, the value of the current $300 burial allowance and 
$300 plot allowance for qualifying veterans has diminished as 
the funeral costs and burial costs have increased. This 
negatively affects the survivors left behind.
    Additionally, the National Shrine Mandate holds that all 
national and other veterans cemeteries under the control of the 
NCA shall be considered national shrines. The NCA's ability to 
meet and maintain the National Shrine Mandate will require 
adoption of the highest-quality standards and insurance 
measures.
    I applaud the Independent Budget's thorough assessment of 
the NCA, highlighting current shortcomings and the need for 
targeted funding. In that vein I believe the VA should conduct 
preemptive review of the NCA's obstacles in meeting the 
National Shrine Mandate and its other commitments. This will 
help toward new issues that may arise and ensure that existing 
ones do not grow in complexity as we have recently witnessed.
    Finally, I look forward to hearing an update from Ms. 
Kathryn Condon on the progress that is being made with 
recordkeeping, contracting, and other issues at the Arlington 
National Cemetery. I appreciate your vigilant oversight of 
Arlington, an unparalleled national treasure that serves a very 
unique tradition. More needs to be done, but you have made 
tremendous progress.
    I also look forward to hearing from all of our esteemed 
witnesses. I welcome the opportunity to continue working with 
you to maintain our final commitment to those who gave so much 
to our country. I yield back.

    [The prepared statement of Hon. McNerney appears in the 
Appendix]

    Mr. Runyan. I thank the gentleman.
    And at this time I would like to welcome our first 
witnesses. We have the Honorable Steve Muro, the Under 
Secretary for Memorial Affairs for the National Cemetery 
Administration. Welcome.
    Mr. Muro. Thank you.
    Mr. Runyan. Next we have Ms. Kathryn Condon, the Executive 
Director of the Army National Cemeteries Program. And finally, 
we will hear from the Honorable Raymond Wollman, the Deputy 
Secretary for the American Battle Monuments Commission.
    Secretary Muro, your complete written statement will be 
entered into the hearing record, and you are now recognized for 
5 minutes for your oral statement.

 STATEMENTS OF STEVEN MURO, UNDER SECRETARY, NATIONAL CEMETERY 
 ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; KATHRYN 
 CONDON, EXECUTIVE DIRECTOR, ARMY NATIONAL CEMETERIES PROGRAM, 
    U.S. DEPARTMENT OF DEFENSE; AND RAYMOND WOLLMAN, DEPUTY 
        SECRETARY, AMERICAN BATTLE MONUMENTS COMMISSION

                 STATEMENT OF HON. STEVEN MURO

    Mr. Muro. Thank you, Chairman Runyan, Ranking Member 
McNerney, and members of the Subcommittee. I appreciate the 
opportunity to update you today on VA national cemeteries. I am 
pleased to be here this afternoon with representatives of 
veterans service organizations, the Survivors Program, funeral 
industry, along with my colleagues from Arlington National 
Cemetery and American Battle Monuments Commission.
    Today we honor the fallen from the past and present 
conflicts, and we commemorate the service and sacrifice of all 
the veterans, their families, and their survivors. We 
collaborate frequently and effectively. For example, 
representatives from ABMC, National Park Service, and Arlington 
National Cemetery are ex officio members of the congressionally 
mandated Advisory Committee on Cemeteries and Memorials. We 
share best practices and operational standards.
    NCA recently provided technical assistance during DoD's 
internal review of service academy cemeteries, and we funded a 
Park Service study to identify best cleaning procedures for 
government-furnished headstones. For nearly 50 years we have 
worked closely with ABMC to the honor the Honolulu Memorial at 
the National Memorial Cemetery of the Pacific in Hawaii.
    We are constantly working with the Park Service and their 
experts on historical preservation for our cemeteries, 
features, and monuments such as the cenotaphs at the 
Congressional Cemetery here in Washington, D.C., and on our 56 
lodges.
    We welcome Arlington, Park Service, and the State employees 
to our annual conference and to our national training center in 
St. Louis. We continue to strive to find new ways to work 
together to honor our veterans, and soon we will formalize our 
efforts through the joint NCA-Arlington Working Group.
    Today NCA manages 131 national cemeteries, 33 soldier lots 
and plots and monuments. About 100 of these properties date 
back to the Civil War, and serve as reminders of the Nation's 
enduring commitment to care for him who shall have borne the 
battle.
    We are leading the largest expansions of national 
cemeteries since the Civil War. We have built 18 new national 
cemeteries since 1992, and we are now acquiring land for 5 new 
more. We are also moving forward with an initiative designed to 
meet the needs of veterans in highly rural and urban areas, and 
we will continue to fund construction of State and tribal 
veterans cemeteries. Today these efforts move us closer to our 
target of providing nearly 95 percent of the veterans with a 
burial option within 75 miles of their residence by 2015.
    The sound planning practices and your unwavering commitment 
to access to convenient burial for our veterans has increased 
from 75 percent of the veterans with a burial option in 2004 to 
89 percent in 2011. Our 2013 budget request enables us to reach 
90 percent next year.
    Also, our fiscal year 2013 budget seeks $258 million for 
operation and maintenance funds needed to maintain cemeteries 
as national shrines, meeting the increasing demand for benefits 
and services, and provides our outstanding customer service 
that NCA is known for.
    In partnership with VA's Office of Information and 
Technology, we are strengthening the automated system that 
supports our day-to-day cemetery administration. Our VA 2013 
budget request includes funding in IT that is crucial to our 
continued success.
    For example, our Burial Operations Support System, known as 
BOSS, is used by State, tribal, Army and Park Service in 
addition to our cemeteries. At present the system contains 
about 10 million records and is essential to accountability. We 
use it to manage our burial cases, schedule interments, 
maintain gravesite information, track orders of headstones, and 
compile reports. Our nationwide grave locator, now available on 
mobile devices, also relies on this system. The BOSS system 
remains vital to ensuring that veterans and their families 
receive the benefits they have earned through their service and 
sacrifice.
    I appreciate the Subcommittee's continued interest in 
improving access and accountability at the national cemeteries, 
and am ready to take your questions. Thank you.

    [The prepared statement of Hon. Muro appears in the 
Appendix ]

    Mr. Runyan. Thank you, Under Secretary Muro, for your 
comments.
    And Ms. Condon, you are now recognized for your opening 
statement.

                  STATEMENT OF KATHRYN CONDON

    Ms. Condon. Chairman Runyan, Ranking Member McNerney, and 
distinguished members of the Subcommittee, thank you for the 
opportunity to appear before you once again to talk about the 
progress at Arlington National Cemetery.
    Since our last meeting, we have made rapid, state-of-the-
art, sustainable progress across all aspects of the cemetery, 
from the sound fiscal stewardship to our campaign plan, which 
codifies in one strategic document the long-term vision for the 
operation and the expansion of Arlington. No longer is 
Arlington a paper-based operation. On this upcoming Monday, 
March 12, we will launch our internal geospatial application 
system for managing the cemetery. By producing a single 
electronic map of Arlington, the staff will assign, manage, and 
track gravesites with an authoritative digital map, a first for 
the cemetery. It will allow us to synchronize in real time our 
burial operations at Arlington, a great difference from 21 
months ago when we were copying 60 copies of manual documents 
and distributing them to our stakeholders, and assignments were 
made by pencil on paper maps.
    Arlington is the first national cemetery to use geospatial 
technology for our day-to-day operations. Our geospatial 
operation will be linked to the accountability database that we 
reported on in December to this Congress.
    We have validated 84 percent of all markers in the 
cemetery, and are working diligently to validate the remaining 
16 percent. We have also started the validation of the 14,000 
markers that we have at the Soldiers' and Airmen's Home. And we 
will use--all future interments will use the same 
accountability that we have devised from the Accountability 
Task Force.
    This summer we will introduce and release our public-facing 
GIS applications that will allow the public to locate 
gravesites or other locations in the cemetery, generate front 
and back pictures of each and every marker, and receive 
directions to their loved one's gravesite. These applications 
will operate across common Web browsers, mobile smart phones, 
and kiosks, and all will be able to access Arlington either via 
our state-of-the-art Web site or our advanced technological 
applications.
    We have been partnering with the National Cemeteries 
Administration of the VA. By sharing lessons learned and best 
practices, all veterans will benefit. We have sent a number of 
our personnel to the VA training center in St. Louis, and, 
conversely, we have hosted representatives from the VA to 
demonstrate our advanced geospatial capabilities and discuss 
our information technology experiences, from our public-facing 
applications, to our digital mapping, to our Internet-
accessible headstone designer tool.
    The Arlington National Cemetery Advisory Commission, under 
the Chairmanship of Mr. Max Cleland, is holding their second 
meeting as we speak. They are at the cemetery right now. And 
the Commission will provide recommendations on how best to 
extend the burial life of Arlington, to address the crack in 
the Tomb of the Unknowns, and to capture and convey Arlington's 
history, including the long-term implications of the Section 60 
memento program, and improving the experience for all who visit 
the cemetery.
    In conclusion, since my last report to this Congress, I 
believe that Arlington has made monumental changes and achieved 
great progress, but we still have a lot of work left to do. But 
the superintendent, Pat Hallinan, myself, and the entire 
cemetery are all dedicated to the mission of honoring our 
veterans and their loved ones.
    I want to thank you, Mr. Chairman, and Members, and 
especially the staff of this Committee, for your support and 
leadership to me personally the last 21 months, and I look 
forward to your questions.

    [The prepared statement of Ms. Condon appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Condon.
    Deputy Secretary Wollman, you are now recognized for 5 
minutes.

               STATEMENT OF HON. RAYMOND WOLLMAN

    Mr. Wollman. Thank you, Mr. Chairman, Ranking Member, 
members of the Subcommittee. Thank you for this opportunity to 
discuss the cemeteries administered by the American Battle 
Monuments Commission.
    Our Secretary, Max Cleland, asked me to convey his regrets 
that he could not attend this afternoon's hearing. He is 
chairing a meeting of the Arlington Cemetery Advisory 
Commission across the river.
    As we reported to you previously, honoring our Nation's 
fallen has been our purpose since the Commission's creation in 
1923. We maintain 24 cemeteries and 25 memorials, monuments, 
and markers around the world. Most of our commemorative sites 
are in Europe. Others are in North Africa, Latin America, and 
the Pacific.
    But it is not geography that defines the American Battle 
Monuments Commission, it is purpose. ABMC's core mission is 
commemoration, honoring service and sacrifice by maintaining 
memorials and shrines to our Nation's war dead and preserving 
their stories. We execute that mission by striving to maintain 
our commemorative sites to a high standard, and by providing 
historical context for why our overseas monuments and 
cemeteries were established, why those memorialized within them 
died, and the values for which they died. Those whom we honor 
deserve nothing less.
    Our maintenance standard is ``like new.'' Most of our sites 
are 52 to 98 years old, with Mexico City National Cemetery 
being nearly 161 years old. Maintaining these sites in a like-
new condition is challenging, but that is our objective.
    I would like to take a moment to describe the types of 
projects we routinely execute to maintain our infrastructure. A 
significant amount of work is required at our memorials to keep 
these beautiful centerpieces of our sites in excellent 
condition. This can range from replacing the roofing system 
above the chapel and memorial at Florence American Cemetery, to 
restoring fresco paintings and a bronze and ceramic relief map 
at Sicily-Rome American Cemetery.
    Other typical projects affecting our memorials are 
improving waterproofing and drainage, and cleaning and 
repointing of memorial stonework. Headstone refurbishment and 
replacement is an ongoing process for us, particularly at our 
World War I cemeteries. By using two robots capable of 
refurbishing and engraving eight headstones per day, we have 
made much progress in improving the overall appearance of our 
sites.
    Just as our cemeteries are ennobled with great architecture 
and art, so, too, they are enriched with beautiful landscapes. 
All of our plantings, including fine lawns and to some extent 
the meadows, require typical horticulture maintenance at 
regular intervals. Occasionally, more ambitious planting 
projects are required, such as at Meuse-Argonne American 
Cemetery, where we will restore tree plantings to the original 
landscape plan.
    Luxembourg Cemetery has several projects underway or 
planned that are typical of our sites: replacing a network of 
pathways to improve bearing loads, replacing original drainage 
systems, releveling terraces, and improving handicapped access 
to the burial plots and to General Patton's grave.
    We completed a comprehensive accessibility study at our 11 
cemeteries in France. While the study included all areas that 
do not meet United States or host Nation codes, the focus was 
to ensure physical access to the plot areas, memorials, visitor 
centers, and restroom facilities. Accessibility studies will be 
conducted at our other sites while projects are developed to 
correct deficiencies identified at the sites in France.
    Maintaining our monuments and cemeteries is and will remain 
the Commission's core mission and top priority, but we also 
have a responsibility to tell the stories of those we honor. 
Accordingly, we have several improvement projects underway to 
do just that. We expect to award three visitor center projects 
this year at the Cambridge American Cemetery in England; 
Sicily-Rome American Cemetery south of Rome, Italy; and at the 
Pointe du Hoc Ranger Monument in Normandy, France. We have a 
project in design for our largest World War I cemetery, Meuse-
Argonne in France.
    To ensure that all of our cemeteries have basic 
interpretive information available as soon as possible, we are 
producing temporary exhibits that will be deployed within the 
next 18 months. This is particularly important for our World 
War I sites as we approach the August 2014 beginning of the 
World War I centennial.
    Turning to the Pacific, in fiscal year 2010, the Commission 
began efforts to bring the Manila American Cemetery and our 
Pacific memorials up to the same standards we maintain in 
Europe. Manila American Cemetery in the Philippines is the 
Commission's largest cemetery and our only commemorative 
cemetery in the Pacific. The more than 53,000 service men and 
women buried and memorialized in Manila represent 24 percent of 
the 225,000 individuals honored at ABMC commemorative sites.
    During fiscal 2010 and 2011, ABMC invested in horticulture 
projects, irrigation projects, and pump systems, and other 
horticultural features. The Manila Cemetery requirements 
beginning in fiscal 2012 are twofold: improve the 
infrastructure of the cemetery, and establish an enhanced 
interpretation program. In order to combine interpretation and 
infrastructure efforts in a thoughtful process, a master plan 
was funded in fiscal 2011 to evaluate the need for facilities 
upgrades, assess current conditions, and address the 
Commission's interpretive program. The plan is not yet 
complete. And to the extent outyear funding is available, 
infrastructure-interpretation projects will be allocated and 
prioritized accordingly.
    However, early indications are that the Commission needs to 
address serious cemetery requirements. Two of those 
requirements will be addressed in fiscal 2013. One, there are 
serious encroachment and boundary issues at the Manila 
Cemetery. To protect the cemetery and address security 
concerns, the Commission will replace the current chain link 
fence around the site with a more robust perimeter wall. The 
new perimeter wall will be constructed in fiscal 2013 and 
should protect ABMC land from future intrusions.
    Second, the design of our quarters will be funded in fiscal 
2013. The existing two quarters are aging and are deficient in 
structure and air conditioning.
    Turning to our Pacific memorials, the Cabanatuan Memorial 
in the Philippines and the Guadalcanal Memorial in the Solomon 
Islands were built by others to lesser standards and with 
inappropriate materials. The Commission is renovating 
Cabanatuan in fiscal 2013.
    And at Guadalcanal we are addressing seismic activity 
concerns, and degradation of the granite, and encroachment 
issues.
    In addition, at the Honolulu Memorial, the site that we 
share with the VA, a handicapped accessibility project was 
completed last year. New Vietnam War battle maps will be 
dedicated this November, and significant memorial renovations 
are scheduled.
    Our commemorative memorial cemeteries are completed works 
of civic art. As we perform the work described above, be it 
routine maintenance or new construction, we are sensitive to 
the Commission's responsibilities to preserve the historic 
fabric of our sites. The essence of our mission does not change 
from year to year: Keep the headstones white, keep the grass 
green, and tell the story of those we honor. We are a small 
agency, about 400 people in total, but whether United States 
citizen or foreign national, our people remain committed to 
executing those objectives.
    Mr. Chairman, that concludes my prepared statement. I would 
be pleased to respond to your questions.

    [The prepared statement of Hon. Wollman appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Wollman.
    I will begin the questioning and then recognize the Ranking 
Member and other Members, as Mr. Turner is currently our only 
other one here.
    I want to start with Under Secretary Muro. Currently NCA is 
performing 39 raise-and-realignment projects. Could you discuss 
what is being done to ensure the problems related to the prior 
raise-and-realignment projects are not repeated?
    Mr. Muro. Thank you for the question, Chairman.
    The first thing we have done is we ensure that the 
headstones are not taken from the gravesite. So they are 
maintained on the gravesite.
    The second thing is we are requiring the COOR, which is a 
contracting officer's representative at the site, to do a daily 
check before they leave at the end of the day to ensure that 
the headstones are on the correct gravesite.
    Mr. Runyan. Were you able to identify all the contractors 
involved in the previous raise-and-realignment projects where 
the errors occurred that actually uncovered and started this 
national audit?
    Mr. Muro. Yes, we were able to identify the contractors 
that did the work. Some of them had done multiple cemeteries. 
We didn't have issues at other cemeteries. But we were able to 
identify them.
    Mr. Runyan. And what are you doing to ensure that none of 
these contractors involved during the initial errors are 
involved in the current or future raise and realignments? Are 
you going to reach out to the same ones, or do we have to make 
sure that we have obviously the process of checks and balances 
in there? Because, rewarding bad behavior sometimes becomes, 
unfortunately, a bad pattern around here.
    Mr. Muro. Two things we have done. Some of them didn't 
rebid other contracts, but the ones that have, we have been 
watching them, and at the other cemeteries where they didn't 
have problems. Plus if they have a site now, we are making sure 
that they are doing it.
    Mr. Runyan. So you are still offering them--
    Mr. Muro. Unfortunately, if they did it in error, and we 
didn't catch it, it became our responsibility once they left 
and we signed off on it. So that is where we are holding our 
employees accountable for that issue.
    Mr. Runyan. But you are still offering the same 
contractors--
    Mr. Muro. Actually most of the contractors that did the 
first rounds aren't in the business anymore. A lot of them 
couldn't keep up with the standard that we set and have not 
rebid the contracts.
    Mr. Runyan. What is the process of accountability once 
personnel are identified who directly led to some of the 
failings uncovered by the national audit?
    Mr. Muro. Whenever an error is found at the national 
cemeteries, it is reported up through the chain. And then we 
double-check to make sure everything, what we think they found. 
We ask different questions to verify. Then when we are sure 
that it is an error, we make sure we advise Congress of the 
error, and this Committee. And we also work with the families. 
We contact the families, where there are families available, 
and we talk to them. If it is just the headstone, once we have 
moved it, we advise them before we move it and after we move it 
that it has been corrected. And then if it is cremated remains 
or a body that needs to be relocated, the eight that we did, we 
contact the family, and we have a funeral director there. If 
the family wishes us to use their original funeral director if 
they are still in business, we do. Otherwise we hire a local 
one from the area.
    Mr. Runyan. But to the personal accountability, there is 
nothing being done there?
    Mr. Muro. Yes, there is. We are holding those employees 
that are still employed with us accountable for the error and 
for not catching the error.
    Mr. Runyan. Do you have any examples of that?
    Mr. Muro. We are in the process of doing the investigation 
to take the appropriate administrative action on those 
employees.
    Mr. Runyan. I know we talked about this in a previous 
budget hearing a little bit, but could you identify the 
resources needed to increase the burial options and 
accessibility to veterans cemeteries to the NCA's strategic 
goal of 94 percent, particularly with the State Cemetery Grants 
Program, which I understand is currently holding just over 100 
cemetery grant applications?
    Mr. Muro. Yes. We have $46 million in our budget for the 
fiscal year 2013 budget request to continue expanding State 
cemeteries, start up new State cemeteries, and do maintenance 
of them. Of that $46 million, $5 million is for maintenance, 
raise and realign, any type of maintenance they need.
    Of the projects we have moving forward, we have enough 
funding at this time and in 2013 to fund those where the States 
are ready to move forward. A couple of the States this year had 
to back out because they didn't have the funding they needed to 
hire the staff and move on. So with the $46 million, we should 
be well covered. Even though we have a large list, many of the 
States aren't ready to move forward, and before we can fund it, 
they need to be ready to move.
    Mr. Runyan. I just had one quick question. We will probably 
get to a second round, but one for Ms. Condon. What is the 
current average wait time for a burial of a servicemember not 
killed in action?
    Ms. Condon. Sir, we can now tell you, with data to support, 
right now for a full honors funeral, which is everything from 
the caisson, the band, the escort platoon, the bugler, the 
chaplain, the chapel--right now the average wait time is 98 
days. People are willing to wait to get to Arlington.
    But what we have also been able to determine, now that we 
have data to support this, is funeral scheduling is cyclical at 
Arlington. We have found that people did not want to schedule 
their loved one's funeral in the winter months. And we are 
picking up the funerals that people want to schedule in the 
spring, summer, and fall. A year ago we couldn't tell you that, 
but now we now are answering every call for people to schedule 
their funerals so that the average wait time has gone up to 98 
days for the full honors. Lesser honors, sir, does not take as 
much time. But we base everything on the full-honors funeral.
    Mr. Runyan. Thank you.
    Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Mura, I have been impressed personally by your 
dedication and your breadth of knowledge on the subject that we 
are looking into now. So thank you for that.
    The VFW, on behalf of the Independent Budget, indicates in 
its testimony that NCA's operation-and-maintenance budget 
should be increased by $20 million per year until its goals of 
95 percent of headstones are free of debris and 90 percent of 
headstones are at the proper height and alignment. Currently 
those goals are lower, 82 percent and 73 percent respectively. 
Do you agree with that conclusion about the resources that are 
required and about the current state?
    Mr. Muro. Thank you for that question.
    Right now, with the funding that we have requested, we can 
get the work done and get the contractors in that can do that 
type of work. One of the things we found, it is tough to find 
contractors. And we contract with disabled veterans small 
business contracts. Most of them, we have actually had to train 
them how do raise and realign. It is hard to find contractors 
to come in and do that kind of work. So we are planning our 
workload based on what we can get done in a year's time. We 
want to make sure that we stay fiscally responsible for the 
moneys that you provide us for this.
    Mr. McNerney. Are you going to be able to meet those new 
requirements, 75 percent?
    Mr. Muro. It would be tougher, but, you know, if you 
provided us the extra funding, we would move forward.
    Mr. McNerney. Thank you.
    The National Association of Funeral Directors points out 
that over half of its members reported that the VA 
reimbursements take longer than 10 months to process, with an 
average of $6,000. What is your assessment of that information?
    Mr. Muro. Thank you for the question, Congressman. I will 
have to take that one for the record. That is VBA that handles 
that. We don't handle any of the funding for reimbursement to 
the families. But I will get back to you with that.

    [The attachment appears in the Appendix]

    Mr. McNerney. Okay. The Independent Budget also noted that 
between 2010 and 2011, that NCA's annual facilities conditional 
assessment, the FCA, reported a 10 percent decline, from 84 to 
74 percent, in what is considered acceptable for NCA 
structures. It also notes that it will take about $62 million 
to make up for this shortfall. Again, your answer to that 
assessment?
    Mr. Muro. Thank you for the question.
    Yes, Congressman, in the past we did the assessment 
ourselves, our engineers. We had an internal assessment. This 
last year we had an outsider that was hired, a contractor that 
did the assessment, and so the numbers went up higher. Their 
view of the condition of the buildings was different than our 
view, which drove the price up also.
    Mr. McNerney. So you are going to take their assessments 
from now on or--
    Mr. Muro. We are, since we are using them to set up for 
further reviews of our facilities. We will be using their 
estimates.
    Mr. McNerney. Well, at one point I heard that families were 
having difficulty finding military honor guards for veterans' 
funerals in some instances. Has this situation been resolved 
yet?
    Mr. Muro. No. Congressman, thank you for that question. But 
unfortunately, no. VA technically has no responsibility, but we 
do work with VSOs and DoD to assist the families. DoD provides 
two individuals, and one of the individuals must be from the 
branch of service. We don't have real control over it. The 
VSOs, some are voluntary service VSOs that are assigned to the 
cemeteries.
    At those cemeteries that we have that, we can provide 
pretty much what we consider full honors, rifle detail, two 
individuals to fold the flag, and Taps. One of our strategic 
goals is the top 20 cemeteries to have our own honor detail 
that are voluntary service VSOs, where we provide them the 
rifles and the blank ammo and the uniforms to provide honors, 
because it is getting--it has always been hard for us to get 
honors for the veterans.
    Mr. McNerney. Do you provide any reimbursements for 
allowable expenses for the volunteers?
    Mr. Muro. The volunteers, through voluntary service, are 
noncompensated volunteers. They do provide them a lunch if they 
work so many hours per day.
    Mr. McNerney. That might explain why it is hard to find 
volunteers if they are not reimbursed for their allowable 
expenses, such as travel and so on.
    Mr. Muro. If we reimburse them, then they are not 
considered volunteers. There is regulations with that. There 
is--DoD can provide funding for those that file to go, but they 
have to do honors per DoD's recommendation. And many of the 
VSOs don't want to move to that because they have their part 
that they would like to add to the service.
    Mr. McNerney. I have one more question for Ms. Condon, if 
you would allow it.
    You know, there has been some stories in recent years that 
have been unsettling from Arlington National Cemetery. What 
have you done to reach out to the families to reassure them 
that the situation is now improving, and we will have the 
highest quality in the future?
    Ms. Condon. Sir, the main way we have been reaching out to 
our families is through our new Web site, which has a section 
where families can comment back to us. We are on Facebook. We 
are on Twitter. We are asking each family after their services. 
What can we do better?
    But it has been our priority in Arlington to make sure that 
we are meeting the families' needs. One of the primary drivers 
behind our headstone designer tool was that the families were 
concerned that on the day of their service, we would have them 
design what they wanted on the headstone of their loved one. 
Now we are testing a pilot where the family can actually design 
the headstone, and it will be a photo of what it will actually 
look like. So that is one more thing that we are taking away 
from the family on the day that they bury their loved one.
    Mr. McNerney. But the ones that were affected, have they 
been notified or--
    Ms. Condon. Oh, absolutely, sir. The bottom line, any time 
we find a discrepancy at the cemetery, the first thing we do is 
to notify the next of kin. That is, we have a standard 
procedure for if anything that we would discover at the 
cemetery.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Runyan. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    I actually don't have a question. I have a comment, Ms. 
Condon. I had a constituent a few months ago call me that his 
grandfather was without a headstone in New Hampshire, and could 
we help out. Well, we made the calls. And you found, identified 
the individual. A headstone is in place, the picture is taken, 
it made the papers. Thank you.
    Ms. Condon. Thank you, sir. That is the standard that we 
want to have every time we have a constituent call any Member 
of Congress, that we can have that turnaround.
    Mr. Turner. That was a World War I veteran, if I didn't 
mention that.
    Mr. Runyan. I thank the gentleman.
    I have a few more questions. I am sure the Ranking Member 
may also. Actually, Mr. Wollman, I have a couple about Clark 
Cemetery in the Philippines for you. If Clark Cemetery agreed 
to stop accepting burials would this bring Clark under the 
ABMC's jurisdiction?
    Mr. Wollman. Mr. Chairman, we don't believe so. The 
threshold question at Clark--and I had the honor of visiting 
Clark last August on site--the threshold question really is 
that the United States Government doesn't own the site at all. 
So at this point right now--or even have control of the site. 
At this point, we don't have permission to work on that site in 
any case.
    So the threshold question is if the Congress was interested 
in pursuing this, how would the United States Government regain 
control of the site? The fact of whether the burials stopped or 
not would really not be relevant to the ABMC. It wouldn't 
change--according to our counsel, wouldn't change that legal 
requirement.
    Mr. Runyan. That actually answers a lot of the questions I 
had, being a legal matter in itself. So thank you for that.
    Ms. Condon, has Arlington National Cemetery seen 
improvements since switching from working with the Army Corps 
in the Baltimore district to the Norfolk district?
    Ms. Condon. Sir, just like when Pat Hallinan and I took 
over the cemetery, it was a fresh look. And we are finding the 
same thing with the Norfolk district is they are coming into 
the cemetery for all of our engineering projects with a fresh 
look, new ideas, and so forth. So we have been very pleased 
with our partnership with Norfolk to date.
    Mr. Runyan. Okay. And also presuming that the Millennium 
Project and the Navy Annex expansion projects progress forward 
as planned, how long will it extend the ability of Arlington to 
handle first burials?
    Ms. Condon. Sir, one of the things that we are doing in our 
designs for both the Millennium Project right now, because that 
is the project that we are going to do first, is to extend the 
cemetery. We think we can extend the cemetery, with the 
Millennium Project, to 2030 and beyond. But for the Navy Annex, 
with new ways of burying, looking at data and so forth, we 
haven't started the planning and design for the Navy Annex yet.
    So I can't tell you right now what the actual end state 
will be for Arlington. Previously people have said 2050, but 
until we do the planning and design of the Navy Annex and 
properly use every acre of that, we really will not be able to 
tell you the actual day when we will run out of space. But we 
are working on that, because we want to base it on sound data.
    Mr. Runyan. And how do you see any of the expansion 
affecting your future budgets?
    Ms. Condon. Sir, in fiscal year 2013, if the budget gets 
passed, we will be able to start the Millennium Project. And we 
also have in the 2013 budget our planning and design for the 
Navy Annex. Those are our two major projects at the cemetery. 
Once we start those and complete those, then it will just be 
sustainment in the outyears. So those are the two projects that 
we really, once set, then it will be just until we run out of 
space at Arlington.
    Mr. Runyan. Mr. McNerney?
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Muro, the NCA audit covers raise and realignments done 
between 2001 and 2011. Has the NCA during the audit discovered 
any problems that happened prior to that date, prior to the 
2001 date?
    Mr. Muro. Thank you, Congressman.
    Yes. Some of the numbers that we reported were actually 
gravesites that had not been raised and realigned. They were in 
sections of some of the cemeteries where headstones had to be 
pulled to go in to do a second interment. Unfortunately, past 
years, as cemeteries got close to closing, aisleways were used 
for interments, and buffer zones. We used to maintain a 20-foot 
buffer zone from the last grave to the fence line. Those were 
taken up and assigned for graves. When they did that, it 
created a problem for the operators in the field. Many of the 
sections, they would have to pull stones to get in and out so 
they can do a burial. And normally, they would put the stones, 
lay the stones on the adjacent grave while they did the 
interment.
    Because of the issue we found, we have initiated that now 
they need to write down what stone they have moved and identify 
it to the office so at the end of the day we can go back and 
check to make sure the stone is placed back on the gravesite. 
Unfortunately, those were procedures that were put in place 
when cemeteries were starting to close, and NCA was not in a 
very expansion program for many years. We didn't expand. It 
wasn't until recently that we started expansion.
    Mr. McNerney. Well, if problems were revealed in the audit 
that took place before 2001, were those mistakes included in 
the report?
    Mr. Muro. Yes. Any errors that were found we have included 
in the report. That is why there is some that talk about 
headstones were switched; where we found that there was no 
markers or the broken marker, and it hadn't been replaced for 
whatever reason. And because of our electronic system and our 
historical records, we were able to identify the graves and 
identify--a couple of the stones were actually private 
headstones.
    As Arlington has, many of our cemeteries have private 
headstones. And so at the time of the interment, no headstone 
was ordered. And on a couple of them, the headstone had been 
ordered, but it sunk, and it was covered up. When we probed, 
when we went to identify, we actually probed and found the 
headstone. We dug it up, put it back--cleaned it up and put it 
back in place. And we have ordered headstones for those that 
didn't have any headstones.
    At a couple of cemeteries that we had, it actually said 
``no headstone to be ordered'' on the record of interment, and 
there wasn't any. We have ordered them since. One of the 
procedures we put in place is that if we have a grave, we are 
going to mark the grave. So we are marking all of them now.
    Mr. McNerney. Ms. Condon, one more question. Do you have 
any suggestions on how this Committee could be helpful to you 
in your job authority?
    Ms. Condon. Sir, the biggest issue I have right now is 
support for our 2013 budget so that we can start the Millennium 
Project and the planning and design for the Navy Annex. By the 
end of this year those buildings that are currently at the Navy 
Annex will be torn down, and we really need to start on the 
planning and design. So support of the 2013 budget is what I 
would really need support for, sir.
    Mr. McNerney. Thank you.
    Mr. Runyan. Thank the gentleman.
    Mr. Turner, do you have any further questions?
    Mr. Turner. No, Mr. Chairman. Thank you.
    Mr. McNerney. Mr. Chairman, sorry, before we dismiss, I 
have one more question for Mr. Wollman.
    Mr. Runyan. Feel free.
    Mr. McNerney. Mr. Wollman, who does own the Clark cemetery? 
You said it wasn't in our government control.
    Mr. Wollman. It is actually owned by the Philippine 
Government. When the United States Air Force left Clark at the 
end, at the cancellation of the treaty with the Government of 
the Philippines, that land transferred over to the Filipino 
Government. So it is technically owned by the Filipino 
Government. I think there is a quasi-governmental corporation 
of the Philippine Government that is now developing that site. 
So ownership is not with either the VFW--that is doing a 
fantastic job in maintaining that cemetery now--nor with the 
United States Government. It rests with the Filipinos.
    Mr. McNerney. What soldiers are buried there?
    Mr. Wollman. It is really effectively the base cemetery for 
Clark Air Force Base. But the initial burials were a group of 
military burials that came from the current site of the 
American Battle Monuments Commission cemetery in Manila that 
were relocated at the end of World War II to make room for the 
burials at the ABMC cemetery. That cemetery has existed at 
Clark for, I don't know, over 100 years. But a chunk of those 
burials came from the site of the current ABMC cemetery in 
Manila. The rest of those burials range from the Spanish-
American War to the final days of Clark Air Force Base. It is 
not a battle death cemetery. Veterans are buried there, people 
who died in industrial accidents.
    Mr. McNerney. Do you have an approximate number of 
Americans?
    Mr. Wollman. I would have to take that for the record, but 
it is in the thousands.

    [The attachment appears in the Appendix]

    Mr. Wollman. It is in the thousands, the number of 
Americans. I think the total burial is 7,000, and almost all 
are Americans. Some are civilians, though. But there is a big 
chunk of veterans buried there. It is not a private cemetery or 
a civilian cemetery. The vast majority are veterans.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Runyan. I thank the gentleman.
    Mr. Wollman, though, I know there is a piece of 
legislation, I think it was being dropped today by 
Representatives Guinta and Owens, to designate ABMC as the 
appropriate entity to do that.
    Mr. Wollman. Thank you, sir.
    Mr. Runyan. Would you oppose any of that legislation?
    Mr. Wollman. Our position is that Clark Air Force Base 
cemetery is an important site, an honored site. It doesn't meet 
the mission of the ABMC. And so the position of making that our 
25th cemetery, if you will, is not something that the ABMC 
supports.
    Mr. Runyan. Okay. Well, Under Secretary Muro, Ms. Condon, 
Deputy Secretary Wollman, on behalf of the Subcommittee, I 
thank all of you for your testimony. And we look forward to 
continuing to work with you on all these important matters in 
honoring our heroes. So you are all now excused.
    And panel two, please come forward to the witness table.
    I want to take a moment to commend the next panel, which 
includes several organizations speaking on behalf of veterans 
and their families everywhere. Each one of you provides an 
invaluable service to our Nation's veterans, and in particular 
their loved ones, in times of need.
    We will begin hearing first from Mr. Ray Kelley, the 
director of national legislative service for the Veterans of 
Foreign Wars. Next we will hear from Mr. Ashley Cozine, an 
executive board member of the National Funeral Directors 
Association. And finally, we have Ms. Melissa Lofaso, a 
casework assistance manager for Tragedy Assistance Program for 
Survivors.
    We appreciate each of your attendance today, and your 
complete written statements will be entered in the hearing 
record.
    And, Mr. Kelley, you are now recognized for 5 minutes for 
your testimony.

STATEMENTS OF RAYMOND C. KELLEY, DIRECTOR, NATIONAL LEGISLATIVE 
SERVICE, VETERANS OF FOREIGN WARS; W. ASHLEY COZINE, EXECUTIVE 
   BOARD MEMBER, NATIONAL FUNERAL DIRECTORS ASSOCIATION; AND 
MELISSA LOFASO, CASEWORK ASSISTANCE MANAGER, TRAGEDY ASSISTANCE 
                     PROGRAM FOR SURVIVORS

                 STATEMENT OF RAYMOND C. KELLEY

    Mr. Kelley. Mr. Chairman, members of the Subcommittee, 
thank you for the opportunity on behalf of the more than 2 
million of the Veterans of Foreign Wars and our auxiliaries for 
the opportunity to testify today.
    I would like to start by acknowledging the dedication and 
commitment of NCA's Under Secretary, Secretary Muro, and his 
staff. They have done an exceptional job. They are very 
responsive to any questions that we have, and we truly do 
appreciate the work that they do.
    Each year VA publishes a performance and accountability 
report. There are 16 performance measures that fall under NCA. 
These measures range from how quickly gravesites are marked 
after interment, and how many people would recommend a national 
cemetery to a veteran in need. More than half of these measures 
come very close or perform better than their strategic targets.
    There are four of these performance measures the VFW would 
like to discuss today. First is accessibility to veterans 
cemeteries. NCA has made a commitment to provide burial options 
for 94 percent of all veterans living in the United States. 
They are currently at 89 percent. Their success in providing 
these options is based on them having a solid metric that 
account for where there is or where there will be burial needs 
and where NCA doesn't have an accessible cemetery. In fiscal 
year 2012, NCA revised its guidelines on the establishment of 
future cemetery placements, providing national cemetery access 
to an additional 500,000 veterans.
    NCA has also been investing in State Cemetery Grants 
Programs. And between 1998 and 2010, 75 State veterans 
cemeteries have been established. The NCA is currently holding 
104 State cemetery grant applications, 61 of which the States 
or Nations or tribes have committed their portion of the funds. 
The NCA will have to invest $152 million in architectural and 
engineering funds to meet their obligation to match these State 
cemeteries. This is a cost-effective way to ensure that areas 
that don't contain the threshold of veterans will have burial 
options. These States have made a commitment to veterans. VA 
must match that commitment and fund these cemeteries as quickly 
as possible. The VFW is requesting appropriations of $51 
million for fiscal year 2013 to accommodate these grant 
programs.
    NCA's latest strategy to provide access to veterans 
cemeteries is to purchase land from private cemeteries in rural 
areas where there is no national or State cemetery burial 
option. This will provide burial options for an estimated 
136,000 veterans.
    These are all very positive steps, and as they move forward 
with closing these gaps, Congress must be prepared to fund 
these projects.
    The next two performance measures can be combined, the 
percent of headstone markers and niche covers that are clean 
and free of debris, and the percent of headstones and markers 
that are of proper height and alignment. These two measures 
represent the aesthetic appearance of our national cemeteries.
    In 2002, the Independent Study on Improvements of Veterans 
Cemeteries identified nearly 1,000 deficiencies nationwide that 
will need to be corrected to reach their goal of improving 
cemetery appearance. This is not a static number of 
deficiencies. As some deficiencies are fixed, other sites, due 
to climate and time, become in need of correction.
    Over the past few years, NCA has done a commendable job in 
addressing these deficiencies by taking funds out of their own 
operational and maintenance budget, but targeted funding is the 
only way NCA will be able to reach the strategic goal. That is 
why, in partnership with the Independent Budget, VFW believes 
that the NCA operational and maintenance budget should be 
increased by $20 million per year until this goal is reached. 
Two hundred eight million dollars will have to be invested to 
eliminate this appearance gap.
    The fourth issue of concern is the capital infrastructure 
of NCA. The VFW believes NCA is a model administration not only 
within VA, but throughout the government.
    Mr. Kelley. However, without proper resources. It will 
continue to fall victim of VA's glaring concern: 
infrastructure. Just like the rest of VA's infrastructure, 
NCA's buildings are in decline. Between 2010 and 2011, NCA's 
annual facilities condition assessment reported a 10 percent 
decline from 84 to 74 percent in what is considered acceptable 
conditions for these structures. It will take an investment of 
more than $62.5 million to fill these--all these condition gaps 
that have currently been identified.
    To continue to put off repairing VA's infrastructure issue 
is irresponsible. VA and Congress must make a commitment to 
improve VA's infrastructure, and that commitment starts with 
increased funding.
    Mr. Chairman, this concludes my testimony, and I look 
forward to any questions you or the Committee has.

    [The prepared statement of Mr. Kelley appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Kelley.
    Mr. Cozine.

                 STATEMENT OF W. ASHLEY COZINE

    Mr. Cozine. Mr. Chairman, Ranking Member, members of the 
Subcommittee, thank you for the opportunity to testify before 
you this afternoon. I am Ashley Cozine, a third-generation 
funeral director in our family-owned business that began 
operation in 1913. I have been a licensed funeral director 
since 1995. In addition to our mortuary, we also own and 
operate a cemetery and a crematory that we developed in 1997. 
We serve approximately 350 families a year at our mortuary and 
employ 10 to 12 staff members. I currently serve on the 
executive board of the National Funeral Directors Association, 
and I am a past president of the Kansas Funeral Directors 
Association.
    I am testifying today on behalf of the more than 19,000 
funeral directors and funeral service personnel who are members 
of the National Funeral Directors Association. The average NFDA 
member is an independently owned and operated business with 
fewer than 10 employees and has been in the same family for 
over 60 years. NFDA is the leading funeral service organization 
in the United States providing a national voice for the 
profession.
    The VA estimates that approximately 650,000 veterans died 
in the U.S. in 2011. Each one of these service men and women 
had a family or friends who grieved their loss, and in each 
case a funeral director helped ensure that every veteran 
received the care, honor and dignity they earned because of 
their sacrifice for our country.
    Most of my experience with the VA has been with the Kansas 
Veterans Cemetery in Winfield, Kansas. This cemetery is under 
the direction of the Kansas Commission of Veterans Affairs. In 
my experience it is a well-run and efficient cemetery 
operation. The staff is very friendly and helpful in assisting 
our mortuary and the families we are serving. The grounds and 
facilities are well maintained. It is a good option for veteran 
families that do not already have cemetery property.
    I have also had the opportunity to work with Fort 
Leavenworth and Fort Scott National Cemeteries, albeit on a 
more limited basis. Because these two cemeteries are several 
hours away from Wichita, fewer families choose these options. 
However, my experience has been very positive with them as 
well. They appear to be efficiently operated and are 
beautifully maintained. Families seem to be very appreciative 
of the services they offer.
    The National Cemetery Administration is to be commended to 
their service to our Nation's veterans.
    In preparation for my testimony today, NFDA conducted an 
email survey of its members to obtain firsthand experiences in 
relation to veterans cemeteries. Overall our members were 
highly complimentary of the state of our Nation's veterans 
cemeteries. Our members have found the management and operation 
of these cemeteries to be courteous, flexible and accommodating 
to the needs of the funeral director and the family members of 
the deceased veterans.
    While most of our members are satisfied with the services 
provided to them by the national cemeteries, there is some 
improvements that could be made to improve the service funeral 
directors can provide to the families of our Nation's veterans.
    In February of 2012, NFDA conducted a nonscientific study 
of our members to assess their experiences when dealing with 
the Department of Veterans Affairs funeral reimbursement 
policies. Approximately 60 percent of the respondents stated 
the VA still owes them for outstanding veterans funerals that 
are over 6 months past due, with the average amount being 
nearly $6,000. Half of the respondents indicated that 
reimbursements take 10 months or longer. One funeral director 
reported that the VA owes him more than $128,000.
    I would be remiss if I did not mention that there are 
hundreds of funeral directors in Washington, D.C., today.
    My colleagues and I have come to Capitol Hill to support 
our Nation's veterans by working for passage of H.R. 2051, a 
bill to repatriate unclaimed veterans' cremated remains. 
Currently many funeral homes across the country are holding the 
cremated remains of veterans who have been unclaimed by family 
members. NFDA strongly believes that these remains should be 
given proper burial or interment along with the appropriate 
military honors.
    H.R. 2051 would direct the Secretary of Veterans Affairs to 
work with veterans service organizations and other groups in 
assisting funeral homes in possession of abandoned and cremated 
remains to determine if the remains are those of a veteran 
eligible for burial at a national cemetery. If remains are 
determined to be those of an eligible veteran with no next of 
kin and no available resources to cover burial and funeral 
expenses, then the Secretary of Veterans Affairs would cover 
the cost of burial. In addition, the bill would call on the VA 
Secretary to establish a public database of the veterans 
identified in this project. NFDA strongly supports this 
legislation and encourages Congress to pass this important 
legislation.
    Mr. Chairman and distinguished members of the Committee, on 
behalf of the members of the National Funeral Directors 
Association, I want to conclude my testimony today by thanking 
you for the opportunity to testify to you on behalf of NFDA. I 
hope my testimony has been helpful, and I will be happy to 
answer any questions you may have.

    [The prepared statement of Mr. Cozine appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Cozine.
    Ms. Lofaso.

                  STATEMENT OF MELISSA LOFASO

    Mrs. Lofaso. Thank you, Mr. Chairman, members of the 
Subcommittee. I am pleased to submit this testimony on behalf 
of the families of America's fallen military heroes and the 
Tragedy Assistance Program for Survivors, known as TAPS. TAPS 
is the national program providing compassionate care for all 
those who are grieving the death of someone who died while 
serving in the Armed Forces. Since our founding in 1994 by 
military families, TAPS has provided peer-based emotional 
support, grief and trauma resources, survivor seminars, Good 
Grief Camps for children, casualty casework assistance and a 
24/7 hotline.
    My name is Melissa Lofaso, and I am the national director 
for care coordination at TAPS, and I am the proud wife of 
Active Duty Navy Petty Officer Edward Porrey. As a clinical and 
mental health counselor specializing in grief and trauma, my 
job involves assisting families of our fallen military who are 
encountering administrative challenges that are difficult to 
navigate when deeply grieving, while also addressing their 
bereavement needs. I have supported many families in 
communicating with VA cemeteries.
    Our perspective at TAPS is anchored in our experience, 
which is providing emotional support for surviving families of 
our fallen military. Whether it is regarding a mismarked 
headstone, a grave marker that has been moved or some other 
concern, we believe that resolving issues quickly in 
coordination with VA leadership of the National Cemetery 
Administration helps survivors heal.
    Most of the families we talked with are satisfied with the 
care they receive from the national cemetery system, but 
sometimes there are problems that arise. In one case TAPS 
connected the VA cemetery with a family who was upset that 
their loved one's gravestone had an error. We brought the 
matter to the attention of the National Cemetery 
Administration, and a new stone was cut immediately. It was 
express-shipped to the cemetery and installed within 48 hours. 
The family was overjoyed.
    This case illustrates an important point. Addressing 
concerns raised by surviving families promptly can go a long 
way to correcting problems. In a more recent case, a family 
wanted their Marine son's headstone to mention his service in 
Iraq and Afghanistan. I contacted NCA, and the headstone was 
changed. Having this change made so quickly and with such 
professionalism changed the tone of the family's grief and 
allowed them to focus on healing rather than their frustration.
    In another case, however, a widow went to visit her 
husband's memorial marker at the National Cemetery of the 
Pacific. Her husband's marker was missing, and she had to 
search to locate it. When she asked the cemetery staff why the 
marker had been moved, she was told she must be mistaken, and 
that the stone had not moved. This widow had photos showing the 
marker's previous location. The cemetery staff then researched 
the situation and found that the marker had, in fact, been 
moved during a renovation project.
    This case illustrates another key point. When problems 
arise, it is always better to be honest with surviving 
families. Families become most upset when they believe that 
information is being kept from them.
    Based on our experiences supporting surviving military 
families, TAPS offers the following recommendations for 
improvements in the national cemetery system: One, to provide 
sensitivity training for local VA cemetery staff who may 
encounter surviving families. TAPS has conducted training for 
military casualty assistance officers in all services, military 
chaplains, USO volunteers and many others. The trainings that 
we offer teach how to work with each staff member with 
compassionate and empathic care when working with surviving 
military families. TAPS welcomes the opportunity to provide 
this training at no cost to national cemetery staff who come in 
contact with grieving families.
    Two, encourage local VA cemetery staff to connect with TAPS 
when emotional issues arise so that we can help them facilitate 
the resolution the family seeks, while also addressing the 
family's bereavement needs.
    Finally, encourage local VA cemetery staff to provide 
accurate and clear information to families when a concern 
arises. Over the past year and a half, families of our fallen 
military and veterans have endured a series of revelations 
about mismanagement and mistakes at Arlington Cemetery, the 
Dover Port Mortuary and the VA national cemeteries. For some 
families, their trust in our Nation's commitment to honor the 
service and sacrifices made by their loved ones has been 
shaken. It is our perspective that we must work together as a 
community of care to find a way forward beyond these challenges 
surrounding the care of our fallen military servicemembers and 
veterans. TAPS is ready and willing to work collaboratively 
with the military, the VA and other partners as together we 
will provide better care and more compassionate support to the 
families of our fallen heroes.
    Thank you very much. This concludes my testimony. I welcome 
any questions.

    [The prepared statement of Mrs. Lofaso appears in the 
Appendix]

    Mr. Runyan. Thank you, Mrs. Lofaso.
    I want to begin a round of questioning with Mr. Kelley 
dealing with ABMC and Clark Veterans Cemetery. What 
organization do you believe should be responsible for 
maintaining that cemetery?
    Mr. Kelley. It seems most logical to have the battle 
monuments, they have already got folks in the Philippines. To 
carry over to take care of that would seem to be the most 
reasonable way to take care of that. But if and when they do, 
resources need to be put in place to bring it up to the same 
standard.
    Mr. Runyan. And also, do you think the NCA has properly 
responded to the recent problems revealed at several of their 
cemeteries, including headstones placed over the wrong graves, 
in some cases for years? I know at least eight people were 
buried in the wrong place.
    Mr. Kelley. I think they have. They took initiative on 
their own to see where the mistakes were. They identified the 
mistakes and contacted families, contacted Congress 
immediately, let them know what the corrective actions were 
going to be taken, and then they put in a plan to move forward 
to minimize those mistakes.
    Mr. Runyan. Do you think the NCA's plan to address 
accessibility to veterans cemeteries are adequate to handle the 
aging veterans population for the foreseeable future?
    Mr. Kelley. Yes, they are. Since they have reduced the 
threshold rate from 175- down to 80,000, that is going to allow 
them to establish, I think, 5, maybe 7 new national cemeteries. 
The new, innovative idea of purchasing in small areas is a 
great idea. Those will be attached to larger cemeteries for 
management purposes. So they will hold the same respect and 
have the same visual appeal. So I think it is a great idea.
    Mr. Runyan. Thank you.
    Mr. Cozine, you brought up in your testimony H.R. 2051--I 
actually have a group of veterans in my district that do, quite 
frankly, what you were talking about. Where you have veterans 
that have no next of kin, these gentlemen actually go out--and 
they are all former servicemembers themselves--they go out and 
go to places of business like yours and seek these individuals 
out. I am glad you brought that up. Could you just elaborate 
for the record on what a problem this is?
    Mr. Cozine. Thank you for that question.
    It is a problem, because when we take care of a family and 
their loved one, oftentimes they leave us with the cremated 
remains, and the responsibility and liability all rests with 
us. Oftentimes there is nothing we can do.
    This H.R. 2051, I think, is a great solution. I know in 
Kansas they are looking at similar legislation. The benefit of 
H.R. 2051 is the fact that there would be a national database. 
The idea with that would be if there was a loved one that was 
maybe not in Kansas that didn't know what funeral home had 
taken care of their loved one potentially could go to that 
national database and find out where their loved one was 
interred. And I think that that is a major benefit of that 
proposed legislation.
    It is a sad, sad thing when families don't come back to 
claim their loved one, in my opinion, and take responsibility 
for their final interment.
    Mr. Runyan. Thank you.
    In general how would you rate the upkeep and appearance of 
the NCA cemeteries compared to other private and State veteran 
cemeteries?
    Mr. Cozine. I would say my experience has been that they 
are well maintained, and have very helpful staff, and beautiful 
landscape, and well taken care of.
    Mr. Runyan. Do you have any recommendations as to what NCA 
can do to improve access to cemeteries?
    Mr. Cozine. That is a great question. I think the thing 
that I hear the most from my colleagues is the fact that 
scheduling can be an issue. That was addressed in the first 
panel. And I am not specifically talking about Arlington, but 
even in some of the national cemeteries, for example in Kansas, 
their hours are limited more than other cemeteries would be. So 
sometimes families will want to have a funeral service and are 
unable to get confirmation from a cemetery as to when and what 
day and time that can take place. So if we can improve upon 
that, I think you would have a lot of funeral directors and 
families that would be pleased so that they can better plan 
their funeral services.
    Another thing that is dependent on that is just waiting to 
be able to put an obituary in the newspaper. Sometimes our 
hands are tied on that until we can find out when that service 
is going to be.
    So just those efficiencies. I think if they can be 
improved, I think the families would be better served.
    Mr. Runyan. Thank you.
    Mrs. Lofaso, do you think the NCA properly takes the 
sensitive nature of the grief and loss experienced by families 
of deceased servicemembers into account, particularly when they 
are handling a challenging problem as a missing memorial marker 
or misplaced headstone?
    Mrs. Lofaso. Thank you.
    For the most part I do. I think that we have been very 
impressed with the level of professionalism that has been shown 
by the staff members. However, there are some situations that 
do stand out, and for those families, that changes their entire 
view of the VA cemetery system as well as the experience that 
they have during the burial of their loved one. And for those 
situations, that is why I recommend that we do work together to 
give some sensitivity training to staff members around the 
country, just to make sure that they are familiar with how to 
work with families who are deeply grieving and may be 
expressing emotions that others may not be as comfortable 
working with.
    Mr. Runyan. In your experience, does the NCA typically 
respond to the types of issues you testified about promptly and 
honestly, or are family members sometimes met with delayed 
response times or the sense that they are being misled?
    Mrs. Lofaso. Yes, there have been a few cases, 
unfortunately, where it has taken a lot of time for responses 
to be made to family members. In those cases TAPS has gotten 
involved as an advocate organization and has been directly 
connected with the NCA in making sure that the answers to their 
problems have been found.
    For the most part I would say that everybody has been 
working very efficiently, and we have been very thankful and 
impressed with the level of progress that has been made on 
behalf of the families.
    Mr. Runyan. Thank you.
    Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Kelley, I want to thank you for the hospitality you 
showed me Tuesday night at the VA's VFW reception.
    Do you think that the NCA's new policy of reducing the 
threshold from 80,000 to 25,000 veterans in a 75-mile radius in 
rural areas is sufficient to address the need of veterans and 
survivors residing in rural and urban areas?
    Mr. Kelley. I think it is a good start. It is going to 
provide access for 136,000 veterans. I think let it be enacted 
for a few years, see how the program goes; if they need to 
reduce or increase that threshold of veteran as higher than 
25,000 because they are just not finding enough cemeteries or 
enough veterans, then we can move in that direction, similar to 
what they did with the national cemeteries from taking it from 
175- down to 80-.
    So they are doing a really good job of bridging those gaps, 
and I will hold off an opinion until we have a year or two to 
really understand how well it is being implemented.
    Mr. McNerney. Thank you.
    Well, would you elaborate on the figures in your testimony 
wherein you concluded a few minutes ago the VA will need to 
increase its operational and maintenance funding by $20 
million? How many years do you think that will be needed, or is 
that a perpetual need?
    Mr. Kelley. There is always a perpetual need, because 
nature takes over after you leave, after you place headstones. 
So those realignment issues, the cleanliness of the headstones 
will always be an issue.
    But I think the number is a little over $200 million that 
would be needed to correct all those deficiencies. Part of that 
should be coming out of the regular operational and maintenance 
budget. But an increase is needed, and we recommend the $20 
million a year. It may take 5 years, somewhere in that 
neighborhood, to completely correct and get them to the 
standard that they want to be. They have been hovering around 
that mid-80 point for 5 or 6 years now after bringing it up 
some. So that is what causes us to believe that an extra 
infusion of money is needed to help them bridge those 
deficiencies.
    Mr. McNerney. Thank you.
    Mr. Cozine, of course, I thank you and the funeral 
directors for working with veterans and their families.
    Let's talk about this 10-month delay. How serious is that? 
I mean, is that enough to make funeral directors not want to 
deal with the VA? How can we make this better?
    Mr. Cozine. That is a great question. It is frustrating, 
yes. I think what oftentimes happens is that funeral directors 
may tend to help the family apply for those benefits so that 
they are not waiting for those funds directly. So those are 
potential issues that can arise when the bills are not being 
paid on time.
    It is frustrating from our end, because when we do file, 
and we are waiting for a long time like that, I sense that the 
line of communication is not always real clear with the VA. And 
a wait could be several months, and then there is a letter that 
comes in the mail that says that this allowance has been 
declined. You know, there is not a lot of further explanation 
to it. So you can imagine waiting several months and then 
getting a letter like that and virtually starting the process 
over again.
    Mr. McNerney. So these directors are using their own money 
to help the family get through this period; is that right?
    Mr. Cozine. Absolutely. They are waiting on those funds and 
in many cases may or may not be charging any interest or 
anything like that in that situation.
    Mr. McNerney. We need to work with--between the VA to open 
up this line of communications, because that is not acceptable.
    Mr. Cozine. I agree completely. You know, the NFDA has an 
office here in Washington. I know that they would be glad to 
work with you on that.
    Mr. McNerney. Okay. Thank you.
    Overall how can the process be improved to ensure that 
memorial benefits are delivered to families seamlessly during a 
sensitive time?
    Mr. Cozine. Well, obviously, the time issue would be a 
major thing. If we can improve upon that, I don't see that it 
would be an issue.
    The other thing to think about, too, is the fact that--and 
my understanding is that the inception of this was in 1973 when 
the benefits came into play. That has not been adjusted over a 
period of time for inflation. So you see the steady rise of 
costs go up, but that burial and plot allowance has not 
increased for many, many years. So that would be an issue that 
could be addressed, obviously.
    Mr. McNerney. That is an issue that is important. We need 
to make sure that those families get reimbursed a sufficient 
amount. Would it help the families, in your opinion, to have a 
standard VA coffin that the poor families could have access to 
as a base in case they can't afford anything better?
    Mr. Cozine. That is a good question. My experience has 
been, that becomes such an individual choice with families. 
Sometimes if you try to offer something to them that may be 
financially beneficial, they don't always take that option. And 
so I don't know how to answer that question directly. I mean, 
in theory it makes sense, but from a practicality standpoint, I 
don't know what the reception of the families would be for 
that.
    Mr. McNerney. Mrs. Lofaso, what do you think is the most 
frustrating thing that families experience when dealing with 
burying their loved ones?
    Mrs. Lofaso. Thank you.
    I think the most frustrating thing is the family's feeling 
as though information is being kept from them. Families, they 
are fragile, and they are grieving, and they do want 
sensitivity, but first and foremost they want to know that they 
are not being lied to. And I think that if they are given the 
correct information up front, even if it is not good news, they 
will take the information a lot better than if they find out 
later that they were, in fact, lied to or given misinformation.
    Mr. McNerney. Thank you.
    Mr. Chairman, I yield.
    Mr. Runyan. I thank the gentleman.
    I actually have one comment for Mr. Cozine, and kind of a 
question. First of all, I want to thank you for your written 
testimony, including the statement from the funeral director 
from south Jersey--I happen to represent Brigadier William 
Doyle Veterans Cemetery, and I appreciate the testimony saying 
things are going well there. I have a lot of constituents. All 
the times that--again, the long wait times are there, because 
this is a very popular cemetery, and the next nearest one is 
way up in north Jersey, which creates a lot of travel time.
    From your experience, do you perceive a need for another 
cemetery in the southern part of the State?
    Mr. Cozine. You know, something that--as I mentioned, in 
Kansas we have several new State veterans cemeteries, and I 
think that that may be something to look at. They have offered 
a good alternative to the national cemeteries when those may 
not be close to a veteran family's residence. So that may be a 
solution. It seems to work well in Kansas. As far as New 
Jersey, I am not sure, though.
    Mr. Runyan. Thank you very much for that information.
    Do you have a closing statement.
    Mr. McNerney. No.
    Mr. Runyan. Well, ladies and gentlemen, on behalf of the 
Subcommittee, I thank you for your testimony. You are now 
excused.
    I ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks and include extraneous 
material. Hearing no objection, so ordered.

    [The attachment appears in the Appendix]

    Mr. Runyan. I thank the Members for their attendance today, 
and the hearing is now adjourned.

    [Whereupon, at 3 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Jon Runyan, Chairman
    Good morning and welcome everyone. This oversight hearing of the 
Subcommittee on Disability Assistance and Memorial Affairs will now 
come to order.
    We are here today to examine the current state of the final resting 
places for our nation's fallen heroes. These cemeteries and monuments 
span across our country and the entire world: from my own District in 
New Jersey with Beverly National Cemetery; to across the Atlantic in 
Normandy, France; or across the Pacific with Clarke Veterans Cemetery 
in the Philippines.
    Some of these cemeteries instantly bring to mind the triumph of 
courage in conflicts fought around the globe for liberty and freedom. 
Others hold memories of bravery now known only to God and those who 
died on the field of battle. Yet, each one of these national shrines 
has this in common: they are all honored tributes to our service men 
and women, now resting in peace.
    I would like to welcome our witnesses today who oversee our fallen 
heroes in the many sites where they now rest.
    Under Secretary Muro is here on behalf of the National Cemetery 
Administration which oversees 131 national cemeteries nationwide.
    Ms. Kathryn Condon is here representing the Army National 
Cemeteries Program, which includes perhaps the most recognizable site 
of our honored fallen in Arlington National Cemetery.
    Finally, Deputy-Secretary Wollman (WOL-MAN) represents the American 
Battle Monuments Commission whose mission is to serve our country's 
fallen heroes and missing in action where they have served overseas.
    I would note that the National Park Service was also invited, but 
has neglected to attend this hearing to my disappointment, and to the 
certain regret of the families they serve. It is my hope that they have 
corrected the problems in administration and upkeep of their cemeteries 
that this Subcommittee uncovered in the last congress.
    This aside, I would like to begin the substance of this hearing on 
a positive note. I believe every person in this room agrees we have a 
solemn obligation to cherish their memory and heroic actions by holding 
ourselves and our organizations to the highest of standards. I also 
believe everyone here is as passionate as I am about our mutual duty in 
honoring our fallen heroes as best as we know how, with all the 
resources we can muster.
    Overall, I believe every organization represented here does a great 
service to our nation's service men and women, and their loved ones. 
With that said, over the last several months numerous problems have 
surfaced across our nation's cemeteries. And they have not been 
isolated events confined to one agency or another. From Arlington to 
Fort Sam Houston, to Dover and beyond, tragedies and missteps have 
continued to mount, month after month.
    Most recently, a series of audits conducted by NCA has revealed, to 
date, over 240 mismarked or unmarked graves and 8 veterans or their 
loved ones buried in the wrong place. Again, this was not a failing of 
just one national cemetery, but at 13 NCA cemeteries nationwide.
    Ladies and gentlemen, there is a pattern here, and I find it 
totally unacceptable. We have a duty to ensure our nation's veterans 
and their families that these problems will be repaired, and never 
occur again.
    Granted, most of these misfortunes originated many years ago, and 
in many cases, decades ago. Only recently were most of these problems 
identified, and I am pleased to see solid progress being made to mend 
the harms across this Nation so that our fallen service men and women 
can finally rest in peace.
    However, this is no excuse for the problems that remain. Therefore, 
it is important to recognize that over the last several months we have 
set a new standard of excellence for ourselves.
    It is one which recognizes that, just as our fallen service men and 
women once fought for our liberties, we must be diligent in fighting to 
ensure that our fallen heroes remain at peace. And that no family will 
ever have to suffer a second burial.
    I am eager to hear of further progress that has been made in these 
regards, and what actions are being taken to ensure these same issues 
never resurface at any of our national cemeteries.
    Furthermore, I am looking forward to hearing of advancements with 
respect to ensuring greater accessibility to veteran burial options; as 
well as measured progress outlined in the National Shrine Commitment.
    I would now call on the Ranking Member for his opening statement.

                                 <F-dash>
     Prepared Statement of Hon. McNerney, Ranking Democratic Member
    Thank you, Mr. Chairman.
    I would like to thank you for holding today's hearing entitled, 
``Honoring America's Fallen Heroes: An Update on our National 
Cemeteries.''
    150 years ago in 1862, President Abraham Lincoln created a national 
veterans' cemetery system and dedicated it, `` . . . for the soldiers 
who shall die in the service of the country.'' President Lincoln's 
words and our steadfast appreciation are as important today as they 
were during the Revolutionary and Civil Wars. Ensuring a proper burial 
for our fallen heroes is a solemn obligation.
    This hearing follows up on a September 24, 2009 hearing, in which 
the Subcommittee examined the VA's cemetery policies and operations, as 
well as those of the other cemeteries under our jurisdiction, primarily 
Arlington National Cemetery and the American Battle Monuments 
Commission. This Subcommittee conducts these oversight reviews to 
ensure that all eligible Veterans are served by an optimal burial 
option with the highest quality possible as their final place of 
repose.
    I want to recognize former Chairman Bob Filner's efforts to direct 
the NCA to change its requirements for establishing a national cemetery 
from 170,000 veterans in a 75-mile radius to 80,000 veterans in a 75-
mile radius. With this change, the NCA met the burial needs of 89% of 
the total veteran population in fiscal year 2011. I appreciate the VA's 
decision outlined in President Obama's fiscal year 2013 budget to 
change service area guidelines to better accommodate the needs of rural 
and urban veterans. These changes will increase the number of veterans 
served by a federally implicated burial option.
    Despite the progress we made in the previous Congress, we must do 
better, particularly as it pertains to wait times for burials and 
quality control at NCA facilities. I think we are all aware of the 
numerous errors related to the VA's contractor-executed Raise-and-
Realign project revealed after the VA's audit of 93 of its 131 
cemeteries.
    I've said this in the Subcommittee before. Mistakes like these are 
unacceptable. They are as avoidable as they are awful. They rob us of 
time that could otherwise be spent ensuring that our Nation's heroes 
are properly laid to rest. More importantly, these mistakes rob the 
family and friends of the peace of mind they deserve. I hope to hear a 
positive update from NCA on the resolution of these errors and 
prevention efforts moving forward.
    Further, the value of the current $300 burial allowance and $300 
plot allowance for qualifying veterans has diminished as funeral and 
burial costs have increased - negatively affecting the survivors left 
behind
    Additionally, the National Shrine Mandate holds that ``all national 
and other veterans' cemeteries under control of the NCA shall be 
considered national shrines.'' The NCA's ability to meet and maintain 
the National Shrine Mandate will require adoption of the highest 
quality assurance measures.
    I applaud the Independent Budget's thorough assessment of the NCA, 
highlighting current shortcomings and the need for targeted funding. In 
that vein, I believe that the VA should conduct a preemptive review of 
the NCA's obstacles in meeting the National Shrine Mandate and its 
other commitments.
    This will help thwart new issues that may arise and ensure that 
existing ones do not grow in complexity, as we recently witnessed.
    Finally, I look forward to hearing an update from Ms. Kathryn 
Condon and the progress being made with record keeping, contracting, 
and other issues at Arlington National Cemetery. I appreciate your 
vigilant oversight of Arlington, an unparalleled national treasure that 
serves a very unique mission. More needs to be done but you have made 
tremendous progress.
    I also look forward to hearing from all of our esteemed witnesses. 
I welcome the opportunity to continue working with you to maintain our 
final commitment to those who gave so much for our country.
    I yield back.

                                 <F-dash>
                Prepared Statement of Hon. Steve L. Muro
    Chairman Runyan, Ranking Member McNerney and members of the 
Subcommittee, thank you for the opportunity to provide an update on the 
national cemeteries under the jurisdiction of the Department of 
Veterans Affairs (VA). I know we all share the same commitment to 
providing our Nation's Veterans and Servicemembers with final resting 
places that memorialize their service and sacrifice.
    I am pleased to provide an overview of several current activities 
the National Cemetery Administration (NCA) is undertaking to meet its 
missions of providing burial and memorialization benefits to Veterans 
as well as maintaining our VA national cemeteries as national shrines. 
I will also describe steps being taken to further strengthen our 
operational processes and systems as well as listen to our customers, 
both Veterans and their families. Finally, I will review how NCA will 
meet the changing environment and technologies of the future while 
remaining respectful of the 150 years that make our history.
Collaboration with our Federal, Private, and VSO Partners
    While each Federal agency present today has a distinct focus and 
expertise, we share a common commitment to memorializing the service of 
our Nation's Veterans. I would like to share some examples of long-
standing partnerships that promote cross-agency efficiency and enhance 
the quality of Federal burial and memorial services.
    NCA provides Government-furnished headstones and markers for all 
federally-administered cemeteries, except the American Battle Monuments 
Commission (ABMC). In FY 2011, NCA was honored to provide over 39,000 
headstones and markers to other Federal and state Veteran cemeteries, 
including Department of Defense (DoD) cemeteries and the Department of 
the Interior's National Park Service (NPS) national cemeteries.
    NCA's National Training Center and annual conference provide an 
opportunity to share best practices and standards among all agencies. 
NCA manages a congressionally mandated advisory Committee, on which 
representatives from ABMC, NPS, and Arlington National Cemetery (ANC) 
are ex-officio members. The Committee provides advice to the Secretary 
on issues related to the selection of cemetery sites, erection of 
appropriate memorials and the adequacy of Federal burial benefits for 
Veterans. The Committee performs relevant work to help NCA meet its 
strategic goals that allow it to meet the needs of Servicemembers, 
Veterans and their eligible family members.
    In addition to these ongoing partnerships, NCA recognizes the need 
for continuous collaboration. For example, we recently responded to 
DoD's invitation to provide technical assistance during their internal 
comprehensive review of all service academy cemeteries. We continue to 
partner with ANC and look forward to establishing a joint DoD/NCA 
working group, a recommendation of a recent Government Accountability 
Office (GAO) Report, to continue support and to further leverage 
opportunities for shared improvement. With this expanded collaboration 
the working group can collectively identify potential improvements, 
share lessons learned, avoid potential duplication and develop 
solutions. We continue our long-standing partnership with ABMC to 
preserve and enhance the Honolulu Memorial at the National Memorial 
Cemetery of the Pacific.
    Partnering with other Federal agencies is just one aspect of 
providing burial benefits to our nation's Veterans. NCA also works 
closely with funeral directors and private cemeteries, two other 
significant stakeholder groups. Funeral directors are often the 
spokespersons for the Veteran or next of kin and are also directly 
involved in the delivery of NCA services through the coordination of 
committal services and interments. Funeral directors may also assist 
families in applying for headstones, markers, and other memorial 
benefits. NCA partners with private cemeteries to furnish more than 
200,000 headstones and markers for Veterans' gravesites in these 
private cemeteries each year.
    Veterans Service Organizations are key stakeholders and partners in 
the VA mission. These organizations act as a voice for Veterans and 
their families, and as advocates for their needs and expectations. At 
many national cemeteries, they are important partners in providing 
support for military funeral honors, and we value the services they 
provide to our Veterans.
    States and tribal governments, usually operating through their 
Veterans Affairs Departments, play an increasingly important role in 
providing service to Veterans and their families. By establishing and 
operating Veterans cemeteries as a complement to VA national 
cemeteries, they provide burial options for Veterans and their 
families.
National Cemetery Administration Overview
    NCA is one of the three administrations within VA. NCA is 
responsible for administering burial and memorial programs to meet the 
needs of Veterans, their families and survivors. We partner with the 
Veterans Benefits Administration (VBA) in the provision of burial 
benefits provided by VA.
    Our responsibilities include: managing 131 national cemeteries and 
33 soldiers' lots and monuments; furnishing headstones, markers and 
medallions for the graves of Veterans around the world; administering 
the Presidential Memorial Certificate program; administering the First 
Notice of Death Program; and, overseeing the Federal grants program for 
construction of state and tribal Veterans cemeteries.
    This year marks the 150th anniversary of the enactment of 
congressional legislation authorizing the establishment of national 
cemeteries during the Civil War. We are proud to be the latest in a 
long line of cemeterians charged with keeping this sacred trust.
    As we move forward into the next fiscal year, we project our 
workload numbers will continue to increase. For FY 2013, we anticipate 
conducting an estimated 119,700 interments of Veterans or their family 
members, maintaining and providing perpetual care for over 3 million 
gravesites, maintaining 8,700 developed acres, and processing 
approximately 350,000 headstone and marker applications. We plan to 
meet this demand while maintaining our high level of customer service 
to those we serve.
    VA's burial and memorial programs are funded from both 
discretionary and mandatory accounts. Mandatory funding is provided 
from the Compensation and Pension account, managed by VBA. These funds 
are used to purchase headstones, markers, medallions and burial crypts. 
The President's 2013 budget request includes a total of $372 million 
for NCA's discretionary programs. Of this amount, $258 million and 
1,700 FTE are included for operations and maintenance of our national 
cemeteries which will allow us to continue to meet our growing 
workload.
Ensuring Access to a Burial Option for our Veterans
    NCA is currently experiencing the largest expansion of the national 
cemetery system since the Civil War. We built 18 new national 
cemeteries between 1992 and 2010, and are in the land-acquisition and 
planning phases for five more. Further, we are moving forward with 
initiatives to meet the unique needs of Veterans in highly rural and 
urban areas, and we continue to partner with states and tribes to fund 
construction of Veterans cemeteries in areas where national cemeteries 
do not meet the full demand. Taken together, these efforts will allow 
us to attain our target of providing 94 percent of Veterans with a 
burial option within 75 miles of their home by 2015.
    Veterans' access to a burial option has increased from 75 percent 
as recently as 2004 to 89 percent in 2011. Our FY 2013 budget request 
will enable VA to provide almost 90 percent of the Veteran population, 
or close to 20 million Veterans, with a burial option in a national, 
state or tribal Veterans cemetery within 75 miles of their homes. This 
dramatically increased access over just 8 years is the result of a 
comprehensive strategic planning process that analyzes the best use of 
resources to reach the greatest number of Veterans, as well as the 
continued support of Congress.
    In FY 2011, VA reduced the minimum Veteran population threshold 
requirement for building new national cemeteries from 170,000 to 80,000 
within 75 miles of a proposed site. As a result of this policy change, 
NCA is planning to establish five new national cemeteries in the areas 
of Central East Florida; Omaha, Nebraska; Western New York; 
Tallahassee, Florida; and Southern Colorado. NCA is actively searching 
for land in these locations and expects to request related construction 
funding in future budgets. With available resources, NCA will continue 
with land acquisition efforts and preliminary design for the five 
cemeteries in FY 2013.
    Also in FY 2011, VA introduced its urban initiative. NCA plans to 
build columbarium-only satellite cemeteries in five urban locations: 
Chicago, Indianapolis, Los Angeles, New York and San Francisco. 
Construction of these facilities will improve access for Veterans in 
densely populated metropolitan areas where issues of distance and 
travel challenges between the urban population core and the existing 
national cemetery are known to be barriers to service and satisfaction. 
Funding was provided for Los Angeles, San Francisco (design) and 
Chicago through FY 2012. The FY 2013 budget includes funding for the 
New York City area; Indianapolis will be included in a future budget 
request.
    Additionally, NCA is implementing a new policy aimed at reaching 
Veterans in highly rural areas that do not qualify for a national 
cemetery and where the construction of a state cemetery is not likely. 
This initiative will establish a national cemetery presence in 8 rural 
areas where a Veteran population of at least 25,000 within a 75-mile 
radius service area currently has no national or state Veterans 
cemetery option. These National Veterans Burial Grounds would be NCA-
owned and managed acreage within the boundaries of public or private 
cemeteries. As a result of this initiative, an additional 136,000 
Veterans will have convenient access to a burial option in Idaho, 
Maine, Montana, Nevada, North Dakota, Utah, Wisconsin and Wyoming.
Memorialization of Veterans' Service
    NCA administers the VA headstone, marker, and medallion benefit as 
well as the Presidential Memorial Certificate (PMC) program. NCA 
provides at no charge to the applicant, a headstone, marker, or 
medallion for any deceased eligible Veteran in any cemetery in the 
world. We provide headstones and markers for eligible spouses and 
dependents of Veterans in Federal and state Veteran cemeteries. NCA 
also provides a PMC to honor the memory of a deceased Veteran 
discharged under honorable conditions and expresses the country's 
grateful recognition of their service in the Armed Forces. Available to 
family members and loved ones, the PMC is a gold-embossed paper 
certificate bearing the official signature of the President of the 
United States. We continue to see an increase in the number of requests 
and copies for PMCs. While the number of applications processed for 
headstones and markers has remained relatively steady, the number of 
PMCs issued has increased substantially. In FY 2011, NCA processed 
373,000 applications for headstones and markers and issued nearly 
780,000 PMCs.
    Recent congressional action with the enactment of Public Law 109-
461, Veterans Benefits, Health Care, and Information Technology Act of 
2006 has allowed VA to memorialize with a medallion a Veteran's service 
if they are buried in a private cemetery and have a privately-furnished 
marker. This law, which allows VA to provide a bronze medallion for 
placement on a privately-furnished marker, has been well received by 
families whose Veteran loved-one is buried in a private cemetery. In 
2011, over 7,000 medallions were provided. The Department's FY 2013 
budget includes two legislative proposals for consideration. One would 
expand eligibility for medallions by removing the November 1, 1990 
applicability date, and the other would allow VA to provide government-
furnished headstones and markers for the privately marked graves of 
Medal of Honor recipients who died prior to November 1, 1990. The 
proposals, if enacted, would allow for expanded recognition of the 
service of our Veterans.
Partnership with the States and Tribal Governments
    NCA continues to maintain a close partnership with the states and 
tribal governments through our Veterans Cemetery Grants Program. The 
program was created in 1978 to further expand burial access to 
Veterans, especially those living in highly rural areas. Today, there 
are 85 VA-funded state and tribal cemeteries in 39 states, Guam and 
Saipan, with seven more now under construction. These cemeteries 
conducted 29,500 burials for Veterans and family members in FY 2011.
    The expansion of the grant program to allow tribal governments to 
receive grants has been extremely valuable. Last fall, NCA awarded the 
first of three grants for the establishment of tribal Veterans 
cemeteries on tribal lands; recipients were the Rosebud Sioux Tribe in 
South Dakota; the Yurok Tribe in California; and the Pascua Yaqui Tribe 
in Arizona. Additional tribal governments have submitted applications 
for consideration in FY 2012.
    Our FY 2013 budget request provides $46 million for the Veterans 
Cemetery Grants Program and will allow NCA to support states in 
collaboratively meeting high priority projects that serve Veterans, 
including those projects submitted by tribal governments. As part of 
this program, VA will continue to offer operating grants to assist 
states and tribes in achieving and maintaining standards of appearance 
commensurate with national cemetery shrine status.
Accountability in VA National Cemeteries
    As you know, in October 2011, I directed a system-wide audit of the 
entire inventory of gravesites within the national cemetery system. 
This self-initiated and comprehensive audit will confirm the proper 
location of all headstones and markers. It is being conducted in two 
phases: 1) in those burial sections where ``raise and realign'' 
projects were completed, and 2) in the remaining burial sections that 
comprise the rest of the NCA inventory.
    NCA initiated the first phase of the audit in October 2011, 
following the discovery of markers that were offset one gravesite in a 
burial section of Fort Sam Houston National Cemetery in San Antonio, 
Texas, where a ``raise and realign'' project had been completed in 
2004. Cemetery staff discovered the error during a field test to verify 
the accuracy of newly formatted gravesite maps.
    NCA recognizes the grief and emotional hardship these errors cause 
and will correct these errors as soon as possible. We know we have just 
one chance to get it right. When we make a mistake, we address it 
immediately and openly. We have contacted the affected families where 
possible, extended our sincere apologies and made appropriate 
corrections. For all additional corrective actions identified, NCA will 
notify next of kin, congressional Committees, and congressional 
district offices regarding required corrective action.
    Generally, situations involving headstones or markers set on the 
wrong gravesites during ``raise and realign'' renovation projects are 
very rare. The major ``raise and realign'' renovation projects are 
critical to NCA's ability to meet its National Shrine standards which 
ensure headstones and markers are maintained at proper height and 
alignment. The audit confirmed that the vast majority of work 
accomplished during ``raise and realign'' projects at 92 VA national 
cemeteries was accomplished accurately and according to contract. NCA 
is taking corrective actions when errors are identified. One and one-
half million gravesites at 92 national cemeteries and one confederate 
cemetery have been audited.
    The first phase has been completed and 1.5 million headstones and 
markers were audited. The second phase will begin to audit the 
remaining headstones and markers until all 3.1 million gravesites that 
NCA maintains are audited. NCA anticipates completing phase two of the 
audit by the end of calendar year 2012.
    NCA requires that the performance of all cemetery work, whether 
contracted or in-house, meets the highest standards of accuracy and 
appearance. Future contracts for renovation projects to ``raise and 
realign'' headstones and markers will require contractors to keep each 
headstone or marker at the gravesite. Such control measures will reduce 
the likelihood of human error in inaccurately replacing the headstones 
and markers.
    During the initial phases of the audit, a finding related to 
contract oversight was identified. In the few instances where 
headstones or markers were offset by one gravesite, it was determined 
that employees who were responsible for monitoring the contractors work 
did not do a proper final check of all headstone and markers to ensure 
final proper placement back on the current gravesite. NCA will be 
hiring certified, full-time, contracting officer representatives (CORs) 
at each of our Memorial Service Network (MSN) offices to oversee future 
gravesite renovation projects.
    NCA continues to promote corporate accountability through updates 
to system-wide operational accountability practices, workforce 
training, integration of information technology and strategic planning. 
We are confident that the processes and systems that we have in place 
will continue to ensure such errors are minimized as we reinforce 
compliance to them by our employees and contractors.
Continued Enhancement to our Record Keeping System
    NCA's Burial Operations Support System (BOSS) Enterprise database 
was developed in 1994 to be a multi-function electronic system that 
provides automated capabilities for supporting the day-to-day 
administrative processes at VA national cemeteries. Its functionalities 
include establishing and managing burial application cases, scheduling 
interments, creating and maintaining gravesite information; creating 
and tracking orders for headstones, markers, and niche covers; 
scheduling and tracking disinterments and reinterments; and compiling 
reports. BOSS is the major information technology (IT) application 
hosting many subcomponent systems including:

    <bullet>  Automated Monument Application System (AMAS);
    <bullet>  Monument Application Scanning System (MASS);
    <bullet>  Management and Decision Support System (MADSS);
    <bullet>  Presidential Memorial Certificate (PMC); and
    <bullet>  Cemetery Kiosk and Nationwide Gravesite Locator (NGL) 
with Mobile Outreach Application.

    In 2003, NCA completed a project that converted approximately 2.5 
million paper and microfilm historical interment records dating back to 
the 1800s into electronic records. These records were reviewed and 
verified utilizing Optical Character Recognition (OCR) technology and 
manual processes to ensure their accuracy, completeness, and 
reliability before they were included in BOSS.
    Presently, BOSS maintains approximate 10 million records. It is 
used by VA national cemeteries as well as other Veteran cemeteries, 
including State and tribal Veterans, Post/Military, Department of Army, 
and Department of the Interior Cemeteries. Over 100,000 interments at 
VA National Cemeteries are recorded in BOSS each year. It is proving to 
be one of our strongest cost saving resources in conducting the current 
audit of the burial sections that have undergone ``raise and realign'' 
projects.
    NCA and VA's Office of Information and Technology (OIT) are 
positioned to provide continued support of NCA's legacy IT systems, all 
of which are at the end of their life-cycle, while also supporting IT 
modernization and redesign efforts.
    The VA's 2013 OIT budget includes approximately $10 million for 
operation and maintenance of existing IT systems and $11 million for 
development projects to modernize and redesign its databases, IT 
systems, hardware and software infrastructure platforms, and network. 
These funds will support development projects that will enable NCA to 
improve quality, minimize the possibility of error, and reduce the time 
needed to deliver burial and memorial benefits. Development projects 
will enable the exchange of information within VA as well as with 
organizations outside of VA. The ability for NCA to take advantage of 
the information flow from other agencies such as DoD, Department of 
Justice, and Social Security Administration, as well as from VA, will 
improve the efficiency and timeliness of providing burial and memorial 
benefits. In return, information gathered by NCA may create one IT data 
base that would support information data exchange and sharing with 
other agencies and administrations that operate Federal, state, or 
tribal cemeteries to ensure accurate accounting of Veteran records.
    As part of our oversight responsibilities and commitment to 
transparency, NCA instituted enhanced accountability measures and 
maintained our focus on workforce training. NCA shared our plans and 
these aspects of our success with Arlington National Cemetery and 
recently requested that a planning meeting be scheduled to establish 
the joint DoD/NCA working group recommended by GAO. We look forward to 
sharing best practices with our Federal partners.
Achieving Performance Results and Customer Satisfaction
    The 2013 budget will allow NCA to continue to achieve exceptionally 
high performance results. We will process 90 percent of headstone and 
marker applications for Veterans buried in locations other than VA 
national cemeteries (e.g., private cemeteries, state and tribal 
Veterans cemeteries) within 20 days of receiving the request. Ninety-
five percent of gravesites in national cemeteries will be marked within 
60 days of an interment.
    NCA is committed to maintaining its high level of customer 
satisfaction. NCA achieved the top national rating four times in ten 
years on the prestigious American Customer Satisfaction Index (ACSI) 
established by the University of Michigan. The Index is the only 
national, cross-industry measure of satisfaction in the United States. 
In 2010, we surpassed over 100 other Federal agencies, and industry 
leaders like Ford, FedEx, and Coca Cola. NCA's independent customer 
survey confirms this exceptional level of performance. In FY 2011, 98 
percent of respondents rated the appearance of national cemeteries as 
excellent and 95 percent rated the quality of service as excellent. Our 
2013 targets for cemetery appearance and quality of service are 99 and 
98 percent, respectively.
    NCA attributes this success to the development and application of 
rigorous operational standards and measures that promote transparency 
and accountability, a national focus on training and strategic 
planning, as well as the continued support of the President and 
Congress. The FY 2013 budget reflects the sustained and significant 
investments in national cemeteries provided over the past several 
years. The base budget for operations includes nearly $32.9 million for 
projects to raise, realign and clean headstones and markers and repair 
sunken graves, as part of our ongoing effort to maintain national 
cemeteries as national shrines worthy of Veterans' service and 
sacrifice. My personal expectation of each employee in NCA is that they 
will provide Veterans and their families with outstanding customer 
service.
Veterans Serving Veterans
    Our veteran-focused work ethic is no surprise, given that 73.5 
percent of NCA employees are Veterans and 80 percent of our cemetery 
directors are Veterans. Since January 2009, NCA has hired more than 250 
Operation Enduring Freedom/Operation Iraqi Freedom Veterans, with 
almost 50 being hired since June 2011.
    NCA is also committed to contracting with small businesses, 
especially businesses owned by Veterans and service-disabled Veterans. 
In FY 2011, NCA far exceeded the Secretary's goals for awards to small 
businesses: NCA awarded 77 percent of contracts to service-disabled 
Veteran owned small businesses, which was significantly above the 
Secretary's target of 10 percent. In addition, NCA met all goals in 
every contracting set-aside. We expect to achieve similar results in FY 
2013.
Apprenticeship Training and Compensated Work Therapy Programs
    Regarding the goal to end Veteran homelessness, NCA will provide 
employment opportunities through the establishment of a new, paid 
Apprenticeship Training Program serving Veterans who are homeless or at 
risk of homelessness. The program will be based on current NCA training 
for positions such as Cemetery Caretakers and Cemetery Representatives. 
Veterans who successfully complete the program at national cemeteries 
will be eligible for full-time permanent employment at a national 
cemetery or may choose to pursue employment in the private sector.
    Through VA's Compensated Work Therapy (CWT) program, homeless 
Veterans earn pay while learning new job skills, relearning successful 
work habits, and regaining a sense of self-esteem and self-worth. NCA 
currently has 138 CWT Veterans that work in VA national cemeteries 
around the country assisting with interment operations as well as 
grounds and facilities maintenance activities. Since 1994, NCA has 
hired 72 permanent employees through the CWT program.
Increasing Efficiencies and Adapting to Meet Veterans' Changing Needs
    NCA continues to apply several system-wide efficiencies such as the 
use of pre-placed crypts, water-wise landscaping, alternative energy 
and headstone and marker foundations to optimize resource usage. For 
example, NCA has applied system-wide use of crypts to preserve land and 
reduce maintenance/operating costs; applied ``water-wise'' landscaping 
that conserves water and other resources; installed alternative energy 
products, including solar panels and a wind turbine, that supply power 
to facilities; installed innovative headstone/marker foundations to 
ensure long term height and alignment and to reduce maintenance needs; 
and is using memorial walls to reduce the land used for gravesites for 
individuals whose remains are not available and save land for in-ground 
cremains. In 2011, NCA received several national awards for water and 
energy management and conservation.
    In 2009, NCA assumed responsibility for the VA's First Notice of 
Death program, through which we ensure timely discontinuation of 
payments to deceased Veterans. By issuing timely notices of death, the 
office frees up other VA staff to provide additional Veterans' benefit 
services, and has enabled VA to avoid over $100 million in overpayments 
to deceased Veterans. Further, we are seeing reductions in both costs 
associated with collection actions and stress experienced by family 
members responsible for repayment. Working in partnership with OIT, we 
are also issuing notices to stop automatic shipment of prescriptions 
from the VA pharmacy program and to cancel medical appointments at VA 
Medical Centers, so those slots can go to other Veterans.
    Building upon our success, we look toward the future and the needs 
our Veterans and their families will have in the years to come. In 
2011, NCA initiated an independent study of emerging burial practices 
including ``green'' burial techniques, such as biodegradable urns, 
underwater cremation reefs and other environmentally sensitive options, 
to identify those that may be appropriate and feasible for planning 
purposes. The study will be completed in fall 2012 and will include a 
survey of Veterans to ascertain their preferences and expectations for 
new burial options. The completed study will provide comprehensive 
information and analysis for leadership consideration of new burial 
options.
Conclusion
    One hundred fifty years ago this July, Congress authorized the 
establishment of the first national cemeteries, and entrusted the care 
of those who fell in battle to the cemeterians who preceded us. We 
continue to maintain that sacred trust, caring for Service members, 
their survivors, our Veterans and their families, in their hour of 
need.
    We have done a lot and there is more to do. We will continue to 
address challenges in a people-focused, results-driven way that 
reflects our core values: Integrity, Commitment, Advocacy, Respect and 
Excellence (``I CARE''). We are committed to expanding our cooperation 
with the funeral industry, Veterans Service Organizations, our 
colleagues in the Departments of Defense and Interior, at the American 
Battle Monuments Commission, and at state and tribal Veterans 
cemeteries, for the expressed purpose of improving service to Veterans; 
in other words, to serve them as well as they have served us.
    This concludes my remarks. I am happy to answer any questions.

                                 <F-dash>
                Prepared Statement of Kathryn A. Condon
    Chairman Runyan, Ranking Member McNerney and distinguished Members, 
thank you for the opportunity to update you on our recent progress and 
highlight the investments needed for the future of the Army National 
Cemeteries Program (ANCP). Our efforts to date have allowed us to re-
build the solid foundation that our veterans, Congress and the Nation 
can and should expect of its premier military cemeteries. These 
standards, controls and systems are also allowing us for the first time 
to understand the cost--in people, money and time--to maintain our 
operations and hallowed grounds in a professional, efficient and 
sustainable manner. This year's request for additional resources is 
critical to fix a long ignored, antiquated and inefficient 
infrastructure, while also initiating burial expansion efforts before 
our veterans' need outpaces prepared land. By practicing sound and 
transparent fiscal stewardship, we will also ensure our future priority 
needs, guided by our strategic plans, are captured and reviewed in 
future years within the standard Army budget process.
A REBUILT FOUNDATION
    Since I last appeared before this sub-committee in October 2011, we 
have continued to make rapid and sustainable progress across the 
organization. Building upon the increased workforce, training and 
standards about which I previously discussed, I want to highlight five 
strategic efforts currently underway. First, our accountability efforts 
steadfastly continue. By this summer, we will produce Arlington's first 
ever single, authoritative and digital database using repeatable 
processes that deliver predictable results. Second, our efforts to 
extend the burial life of the cemetery are advancing, including the 
Columbarium Court #9, Millennium Project and Navy Annex, all being 
captured in our ongoing Master Plan. Third, our Enterprise Architecture 
(EA) and Technology Acquisition Roadmap development is on track for an 
early summer completion, aligning our priorities and information 
technology (IT) investments with my vision. Fourth, we continue 
proactively engaging with partner organizations, including those with 
whom I am testifying today, leveraging and sharing each others' 
capabilities and expertise. Finally, my unwavering commitment to fiscal 
stewardship and contracting excellence is enabling the ANCP for the 
first time to plan, program and budget for our requirements and then 
ensure we are using our resources responsibly and transparently for our 
immediate and long-term needs. These efforts are all components of our 
strategic Campaign Plan, our overall roadmap aligning and focusing our 
key efforts on the mission and my vision for the ANCP.
Accountability
    Creating an accountable data set of all gravesites serves at the 
base of all our efforts. The Gravesite Accountability Study Findings 
report, submitted to Congress in December in accordance with Public Law 
(PL) 111-339, outlined the repeatable processes we are using to produce 
Arlington's first ever single, authoritative and digital database. By 
this summer, we will complete this effort to account for every service 
and family member resting in solemn repose from over 14 decades of 
burials. While no one is more eager than I to conclude this effort, our 
experienced team is painstakingly reviewing and validating records to 
confirm the disposition of the most historic burials at ANC. In the 
past ten weeks, we validated 22,435 additional gravesites, now totaling 
218,183 or 84% of those identified at Arlington. We are working 
diligently to close the remaining 16% of the cases to bring our efforts 
to completion by this summer.
    As we validate records, we have also created a solid foundation of 
standards and processes. We have an auditable chain of custody in place 
using standards that exceed that of the industry. Our workforce is 
using the best practices developed by Gravesite Accountability Task 
Force to ensure all future records remain aligned with our 
accountability standards. As I will discuss later, our use of 
geospatial application system (GIS) based technology is also 
reinforcing this accountability, allowing us soon to launch internal 
scheduling and operations systems operating from a single digital ANC 
map.
Extending the Burial Life of the Army National Cemeteries
    With the land currently ready for burials, ANC will exhaust first 
inurnment space by the year 2016 and first interment space by 2024. 
Working with the U.S. Army Corps of Engineers, Norfolk District, and 
using no-year funds we recovered, we began construction on the ninth 
court of our Columbarium in November. This will extend our above ground 
burial space by eight years (to 2024), providing us a short window of 
time before we must begin construction on our two other expansion 
areas--the Millennium Project and the Navy Annex--to ensure there is no 
lapse in first burial operations. As we speak, the Army National 
Cemeteries Advisory Commission is meeting for the second time, and one 
topic on which they are advising the Secretary of the Army is a 
recommended design for the Millennium Project expansion. The Navy Annex 
buildings are scheduled to be demolished soon, after which construction 
efforts can begin to allow ANC to extend first burials through the mid-
2050s. We continue to work closely with Department of Defense (DoD) and 
Arlington County officials on these efforts.
    We are incorporating all of our expansion efforts within our 
recently begun effort to update our Master Plan for ANC and the 
Soldiers' and Airmen's Home National Cemetery (SAHNC). Last updated in 
1998, our Master Plan will ensure we maximize the available land for 
burials, coordinate future construction plans and subsequent technology 
requirements, and retain the solemnity and historic presence of this 
national shrine. Our ANCP Master Planner is leading a concept design 
conference in two weeks, bringing together ANCP leaders with those from 
governmental and historic, fine arts and other public agencies. Aligned 
with our Campaign Plan, updating the Master Plan is another critical 
step forward for us.
Using Information Technology to Achieve our Vision
    Harnessing state-of-the-art technology to conduct our burial 
operations, family outreach and other activities has remained central 
to our progress since I arrived 21 months ago. While still working 
through technology and security constraints, the ANCP is employing 
leading edge technology to operate the cemetery and communicate with 
our families. For instance, we will soon launch the ANCP's internal 
geospatial application system (GIS). By producing a single electronic 
map of ANC, we can assign, manage and track gravesites with an 
authoritative digital map, a first for a cemetery. We will also be able 
to synchronize in real-time these burial operations with the ongoing 
ceremonies, visitor outreach, infrastructure repair, grounds upkeep and 
public safety efforts we have ongoing daily across the cemetery.
    Additional advances in technology at Arlington allow funeral 
service representatives to certify burials electronically, confirming 
the services occurred as scheduled and recording needed details about 
the service. This record will be electronically available for decades 
and will allow the ANCP to be more accurate, accountable and efficient 
in conducting our operations. As our digital accountability database is 
completed and integrated with the GIS system, we will have the 
capability to better identify and understand trends, obstacles and 
other ways to more effectively and efficiently conduct our mission.
    By this summer, we will also release our public-facing GIS 
applications. Once launched, these applications will allow users to 
locate gravesites or other important sites throughout the cemetery, 
generate front-and-back pictures of a marker, and receive directions to 
these sites. These applications will operate across common web 
browsers, mobile smart phones and on-site kiosks, allowing families, 
loved ones and the general public to access Arlington from web browsers 
on our state-of-the-art Web site.
    We are also using technology to better support our military 
families preparing to lay to rest their loved ones. We are testing our 
online Headstone Formatting Tool, working with a small set of families 
to enable them to review and approve headstone markers remotely on a 
password-protected section of the ANCP Web site. Once testing is 
complete, this tool will allow the ANCP to better support our families 
in their time of need while also increasing the accuracy of this 
permanent tribute to our Nation's military heroes and families.
    Just as the Master Plan synchronizes and guides our expansion, we 
remain on track to complete our EA and Technology Acquisition Roadmap 
in May. Developed in accordance with the DoD's Architecture Framework 
(DoDAF) model, once complete the EA will ensure our future IT 
investments are aligned, prioritized and programmed according to 
identified business needs.
Leveraging our Many Partners
    We appreciate the deeply vested interests that so many 
organizations and individuals have in ensuring our efforts restore the 
trust and confidence in the Army National Cemeteries. The Secretary of 
the Army's guidance and detailed recommendations from the Government 
Accountability Office (GAO), the Army Audit Agency (AAA) and the 
Department of the Army Inspector General (DAIG) have helped us focus 
our efforts, many serving as the basis for our Campaign Plan's 
objectives, subtasks, metrics and milestones. Our expansion and Master 
Plan efforts previously mentioned could not be completed without our 
partners. We are also leveraging experts within the Department of 
Veterans Affairs (VA) and the Army National Cemeteries Advisory 
Commission to make progress more efficient, accurate and timely.
    Arlington's partnership with the VA continues to develop. For 
instance, we work cooperatively and share best practices with the VA 
National Cemetery Administration (NCA), including sending our personnel 
to the NCA National Training Center in St. Louis to receive training on 
various aspects of burial operations. Last week we hosted the VA Deputy 
Undersecretary for Field Programs and staff from VA's Virtual Lifetime 
Electronic Record (VLER) Program Management Office (PMO) to demonstrate 
our GIS system and discuss our case management methodology as it 
applies to call centers. We are also now reviewing ways to incorporate 
lessons learned from this meeting, helping the ANCP continue improving 
our own processes and procedures.
    The Army National Cemetery Advisory Commission concludes its second 
meeting today. As a Federal Advisory Commission, these distinguished 
members are reviewing some of the ANCP's most important and sensitive 
topics to provide independent recommendations to the Secretary of the 
Army and Secretary of Defense. The Commission's three Subcommittees are 
examining how best to extend the burial life of ANC, address the cracks 
in the Tomb of the Unknowns, and capture and convey the Army National 
Cemeteries' history, including the long-term implications of ANC 
Section 60 mementos and improving the experience for those who visit 
ANC. Seven of nine members have been appointed, and we are working 
diligently to fill the two vacant positions. The ANCP is honored to 
have the depth and breadth of experience and expertise of our 
distinguished commission members, each volunteering his or her time to 
support the Army National Cemeteries Program.
Responsible Stewards of our Nation's Resources
    Practicing sound fiscal stewardship builds upon the progress we 
have made across the organization, including gravesite accountability, 
infrastructure modernization, capital investments, IT transformation, 
training, contracting and business process transformation within our 
budget authority. We have identified, reconciled and recovered $26.8 
million from prior year transactions that we were able to re-obligate 
against projects to resolve deficient areas. We continue to monitor our 
spending plan and reconcile our accounts to ensure we make the most 
efficient and effective use of our funding. We are also using our 
strategic Campaign Plan to prioritize our resources--including people, 
money and time--to ensure we are investing the funds provided in a 
deliberate, transparent, and prioritized way to our most critical 
projects in the near- and long-term.
    In partnership with our Army acquisition stakeholders, we have made 
significant progress addressing GAO's remaining contracting 
recommendations: establishing a centralized contracting database, the 
Army Contracting Command's Virtual Contracting Enterprise (VCE) tool, 
about which I discussed last testimony; clearly defining support roles 
and responsibilities within support agreements; and determining the 
acquisition skills needed to support operations.
    The Mission and Installation Contracting Command (MICC) completed 
the personnel hiring process for our on-site Contract Support Element 
(CSE). We will request GAO close this report recommendation, as this 
finalizes the analysis and determination of the acquisition skills 
required to support Arlington operations.
    We are also beginning significant efforts to implementing a green 
procurement approach. Last month we provided the Assistant Secretary of 
the Army for Installations, Energy and Environment an overview of our 
energy, environmental and sustainment procurement initiatives, which 
include the implementation of the VCE Paperless Contract Files (VCE-
PCF) and transition to Purchase Card Online System (PCOLS). Our 
sustainability initiatives extend across our activities, including use 
of electrical vehicles, solar power, recycled materials for sidewalks 
and native plants and perennials to maintain the long-term beauty and 
natural environment of our Cemeteries.
RESPONSIBLY USING AND FORECASTING OUR RESOURCE NEEDS
    The fiscal year 2013 President's Budget outlines the ANCP's 
resources needed: $45.8 million funding requirements to support current 
operations; $103 million in investment for capital improvements 
projects to convert land to future burial sites; and $25 million for 
modernization projects to repair and maintain our aging infrastructure.
    These are significant requests, especially in comparison to our 
previous budgets. In addition, these requests include our urgent need 
to support overdue infrastructure repair and modernization before more 
costly, publically reported, visibly detracting and potentially 
hazardous catastrophic failures occur. These funds will allow us to 
make needed repairs to our roads, HVAC systems, deteriorating and aging 
underground utilities and crumbling boundary wall around the cemetery. 
This will also allow us to begin in FY13 our Millennium Project 
expansion, long under study and to which we are completing an 
additional environmental and archeological assessment. Given the 
extensive construction required to complete a site appropriate for 
these grounds, delaying construction after FY13 will increase its costs 
and risk not completing this project before the ANCP requires use of 
additional burial space. Our stewardship efforts to date will also 
ensure that Army addresses the Navy Annex project, and plans to request 
those resources in future budget submissions. We are prioritizing, 
forecasting and planning for all future budget needs within the Army's 
standard budget process.
CONCLUSION
    We have accomplished a great deal at the ANCP, and many strategic 
efforts are still ongoing. Our Campaign Plan is guiding our priority 
efforts and resource prioritization, including completing an 
accountable dataset of gravesites, the Master Plan, Enterprise 
Architecture, public-facing application and Virtual Contracting 
Enterprise in coordination with partners across and outside of DoD. As 
the hearing is aptly titled, we remain committed to improving the Army 
National Cemeteries, ensuring we honor America's fallen heroes and 
their families with the upmost respect and dignity they have earned and 
deserve, now and for decades to come.
Executive Summary of Ms. Kathryn Condon
    Hearing Subject: To testify on the state of Army National 
Cemeteries Program (ANCP) as part of broader testimony on upkeep and 
areas for improvement by leadership from various Veterans' cemeteries.
    The ANCP continues to make progress across all areas of cemetery 
operations. Nearly complete, the accountability efforts have informed 
implementing standard operating procedures by which leadership will 
effectively manage ANCP for many years to come.
    <bullet>  Accountability Efforts: In accordance with PL 111-339, 
ANC has continued to make progress in closing gravesite cases. 
Specifically, in the past 11 weeks since submitting the Gravesite 
Accountability Report to Congress, we have validated 22,435 additional 
gravesites for a total of 218,183 or 84% of those identified at 
Arlington. As part of validating gravesites, we photographed the front 
and back of each grave marker and entered them into a single, 
authoritative database along with specific burial data for each marker. 
By this summer, we will produce Arlington's first ever single, 
authoritative, digital database using repeatable processes that deliver 
predictable results. This month, we will begin the same accountability 
effort at the Soldier's and Airmen's Home National Cemetery in 
Washington, DC.
    <bullet>  Extending the Life of ANC: Our efforts to extend the life 
of Arlington continue and include the Columbarium #9, the Millennium 
Project and the Navy Annex projects. As it stands today, ANC will 
exhaust its first inurnment space by 2016 and first interment space by 
2024. Construction on the Columbarium #9 Project began in January, and 
once it is complete in 2013, it will extend above-ground burials to the 
year 2024. Together the Navy Annex and Millennium projects will extend 
first burials into the mid-2050's.
    <bullet>  Information Technology: Harnessing state-of-the-art 
technology to conduct burial operations, family outreach and other 
activities remains at the center of our progress at ANCP. Our efforts 
in the area of Geospatial Information (GIS) operations will provide 
greater operational efficiency as well as provide increased family and 
public outreach capabilities. By producing a single authoritative 
digital map of Arlington, for instance, we can assign, manage and track 
gravesites digitally, a first for a cemetery. We will release our 
internal, operational GIS capability this month, and we plan to release 
our public-facing GIS application in the summer.
    <bullet>  Partnership: Arlington's partnership with the VA 
continues to develop. We established a working group with the National 
Cemeteries Administration (NCA) at the VA designed to share best 
practices and learn from one another's experiences. Last week we hosted 
a meeting where we discussed ANC expansion plans, chain-of-custody 
procedures and ANC IT advances in managing Arlington.
    <bullet>  Responsible Stewardship: Practicing sound fiscal 
stewardship supports the progress we have made across the organization. 
Over the past 21 months, we have identified, reconciled and re-
obligated $26.8 million from prior years' transactions. This use of 
funds has enabled many of the advances we have made such as 
construction on Columbarium #9, and we will continue to monitor our 
spending plan to ensure we make the most effective use of our funding.

                                 <F-dash>
                Prepared Statement of Raymond J. Wollman

Introduction
    Mr. Chairman and Members of the Subcommittee . . .
    Thank you for this opportunity to discuss the cemeteries 
administered by the American Battle Monuments Commission. As we 
reported to you previously, honoring our Nation's fallen has been our 
purpose since the Commission's creation in 1923.
    It is our responsibility to honor America's war dead and missing in 
action, where they have served overseas. We maintain 24 cemeteries and 
25 memorials, monuments and markers worldwide. Most of our 
commemorative sites are in Europe; others are in North Africa, Latin 
America, and the Pacific. But it is not geography that defines the 
American Battle Monuments Commission--it is purpose.
    ABMC's core mission is one of commemoration--honoring service and 
sacrifice by maintaining memorial shrines to our Nation's war dead and 
preserving their stories. We execute that mission by striving to 
maintain our commemorative sites to a high standard and by providing 
historical context for why our overseas monuments and cemeteries were 
established, why those memorialized within them died, and the values 
for which they died. Those whom we honor deserve nothing less.
    Our maintenance standard is ``like new.'' Most of our sites are 52 
to 98 years old, with the Mexico City National Cemetery being nearly 
161 years old. Maintaining these sites in a ``like new'' condition is 
challenging, but that is our objective. The following paragraphs 
illustrate the types of projects required to maintain our 
infrastructure.
Memorial Improvements
    A significant amount of work is required at our memorials to keep 
these beautiful centerpieces of our sites in excellent condition.
    At Florence cemetery in Italy, the roofing system above the chapel 
and memorial was replaced and additional work is in design to level the 
terrace, repoint the Wall of the Missing, and realign stonework.
    At Ardennes cemetery in Belgium, a project to improve waterproofing 
and drainage of the memorial's stone terrace is under design with award 
later this summer. The work includes removal then replacement of all 
stonework, including the Tablets of the Missing, and replacement of 
damaged interior wall stones.
    At the Epinal cemetery and Montsec monument in France, and at the 
Luxembourg cemetery, cleaning and repointing of the memorial buildings 
will begin soon.
    Also at Epinal, work will be completed this year to replace the 
asphalt terrace around the memorial and improve drainage.
    And at Sicily-Rome cemetery in Italy, restoration of the fresco 
painting of battle maps is underway and restoration of the bronze and 
ceramic relief map will be awarded soon.
Headstones
    With two robots capable of refurbishing and engraving eight 
headstones per day each, we have made much progress in improving the 
overall appearance at our sites. We refurbished 1,100 headstones and 
engraved 650 new headstones in FY 2011. Projects are underway to 
replace a significant number of headstones in our Brookwood (England), 
North Africa (Tunisia), and Manila (Philippines) cemeteries, as well as 
ongoing refurbishment and replacement projects at most other sites, in 
particular at our World War I cemeteries.
Horticulture
    Just as our memorial cemeteries are enobled with great architecture 
and art, so too are they enriched with beautiful landscape 
architecture--some 900 acres of flowering plants, fine lawns and 
meadows; 3 million square feet of shrubs and hedges; 85,000 rose 
bushes, and 11,000 ornamental trees. All of these plantings, including 
lawns and to some extent the meadows, must be cut and shaped, 
fertilized and treated with insecticides and fungicides at regular 
intervals. Occasionally, more ambitious horticultural planting projects 
are required, such as one at Meuse-Argonne cemetery, where we will 
restore tree plantings to the original landscape plan by replacing 
beech trees with sycamores. And, since 2005, we have improved 12 
irrigation systems.
Roads and Paths
    Work also is required in and around the cemetery plot areas to 
improve the horizontal surfaces and associated drainage.
    At Luxembourg, the entire network of pathways is being replaced to 
improve bearing loads on perimeter routes and realign border stones. 
Other work includes replacing the original drainage system in the 
burial plots, releveling the terrace and improving drainage around the 
memorial, and improving handicap access to the burial plots and General 
Patton's grave.
    The perimeter road and associated drainage at Sicily-Rome cemetery 
is being replaced and improved, as is drainage in the plot areas. 
Improvements related to a visitor center project at Sicily-Rome will be 
made to the entrance, including additional bus parking.
Handicap Accessibility
    We completed a comprehensive accessibility study at our 11 
cemeteries in France. While the study included all areas that do not 
meet United States or host Nation codes, the focus was to ensure 
physical access to the plot areas, memorials, visitor centers, and 
restroom facilities. Studies will be conducted at our other sites, 
while projects are developed to correct deficiencies identified at the 
sites in France.
Telling Their Story
    Maintaining our monuments and cemeteries is and will remain the 
Commission's core mission and top priority. But we also have a 
responsibility to tell the stories of those we honor. Accordingly, we 
have several improvement projects underway to do just that, which 
Secretary Cleland reported to you previously.
    We expect to award three visitor center projects this year at 
Cambridge American Cemetery in England, Sicily-Rome American Cemetery 
in Italy, and at the Pointe du Hoc Ranger Monument in Normandy, France; 
and we have a project in design at Meuse-Argonne. Cambridge and Sicily-
Rome will be new facilities, while Pointe du Hoc and Meuse-Argonne will 
be renovations and modest expansions of existing facilities.
    To ensure that all of our cemeteries have basic interpretive 
information available as soon as possible, we are producing 
``temporary'' exhibits that will be deployed within the next 18 months. 
This is particularly important for our World War I sites, as we 
approach the August 2014 beginning of the World War I Centennial.
Manila American Cemetery and Pacific Memorials
    The story of World War II in the Pacific is the bookend to the 
story of World War II in Europe. In FY 2010, the Commission began 
efforts to bring the Manila American Cemetery and Pacific memorials up 
to the same standards we maintain in Europe.
    The Manila American Cemetery in the Philippines is the Commission's 
largest cemetery and our only commemorative cemetery in the Pacific. It 
contains 17,201 graves of our military dead of World War II, most of 
whom lost their lives in operations in New Guinea and the Philippines. 
On rectangular limestone piers within the hemicycles are inscribed the 
Tablets of the Missing containing 36,285 names.
    During FY 2010 and 2011, ABMC invested in horticulture projects to 
modify existing irrigation and pump systems and replace landscape and 
horticulture features. The Manila cemetery requirements beginning in FY 
2012 are two-fold: improve the infrastructure of the cemetery and 
establish an enhanced interpretation program.
    In order to combine interpretation and infrastructure efforts in a 
thoughtful process, a master plan was funded in FY 2011 to evaluate the 
need for major facility upgrades, assess current conditions and 
infrastructure priorities, and address the Commission's interpretive 
program.
    Manila is the only ABMC cemetery in the Far East and where we have 
the ability to tell the story of the war in the Pacific. The cemetery 
honors by burial and by name on tablets of the missing more than 53,000 
service men and women, nearly 24 percent of the 225,000 individuals 
honored at ABMC commemorative sites worldwide.
    The master plan is not yet complete, and to the extent out-year 
funding is available, infrastructure and interpretation projects will 
be allocated and prioritized accordingly. However, early indications 
are that the Commission needs to address serious cemetery requirements. 
Two of those requirements will be addressed in FY 2013:
       
       Perimeter Wall: There are serious encroachment and boundary 
issues at the cemetery. To protect the cemetery and to address security 
concerns, the Commission will replace the current chain link fence 
around the site with a robust perimeter wall. Unless marked by a 
substantial ``permanent'' wall, local culture ascribes a ``temporary'' 
definition to the boundary that will continue to subject our 
commemorative site to degradation by such intrusions as local highway 
projects and infiltration by squatters. The new perimeter wall will be 
constructed in FY 2013 and should protect ABMC land from future 
intrusion.
       Quarters: The design of our quarters will be funded in FY 2013. 
The existing two quarters are aging and are deficient in structure 
(walls are not insulated) and air conditioning (low efficiency window 
units).
    Pacific Memorials: The Cabanatuan Memorial in the Philippines and 
the Guadalcanal Memorial in the Solomon Islands were built to lesser 
standards with inappropriate materials. The Commission plans to 
renovate the Cabanatuan Memorial in FY 2013. At the Guadalcanal 
Memorial, seismic activity is causing degradation of the granite and we 
have encroachment and vandalism concerns. In addition, at the Honolulu 
Memorial, located within the National Memorial Cemetery of the Pacific, 
a handicap accessibility project was completed last year, new Vietnam 
War battle maps will be dedicated in November, and significant memorial 
renovations are scheduled.
Heritage Assets
    Our commemorative memorial cemeteries are completed works of art. 
As we perform the work described above--be it routine maintenance, 
restoration, replacement, or new construction--we are sensitive to the 
Commission's responsibility to preserve the historic fabric of our 
sites. New interventions, in particular, must be carefully planned so 
as not to denigrate these magnificent shrines to service and sacrifice, 
in keeping with their status as important national heritage assets.
Conclusion
    The essence of our mission does not change from year to year: (1) 
keep the headstones white; (2) keep the grass green; and (3) tell the 
story of those we honor.
    We are a small agency--about 400 people in total. But whether 
United States citizen or foreign national, our people remain committed 
to executing those three objectives with the sole purpose of fulfilling 
the promise made by our first Chairman, General of the Armies John J. 
Pershing, that `time will not dim the glory of their deeds.''
Executive Summary of Hon. Raymond J. Wollman
    The core mission of the American Battle Monuments Commission is 
commemoration--honoring America's war dead and missing in action by 
maintaining 24 cemeteries and 25 memorial shrines to their service and 
sacrifice and preserving their stories. The Commission's maintenance 
standard is ``like new.'' Most of our sites are 52 to 98 years old--
Mexico City National Cemetery is nearly 161 years old.
    A significant amount of work is required at our memorials to keep 
these beautiful centerpieces of our cemeteries in excellent condition, 
from restoring works of art to repointing and realigning stonework to 
improving drainage. Just as our cemeteries are enobled with great 
architecture and art, so too are they enriched with beautiful landscape 
architecture. Landscaping requirements range from routine maintenance 
to restoring original species of trees.
    Within the plot areas, using robots to refurbish and engrave 
headstones has allowed us to improve the appearance at our sites. We 
refurbished 1,100 headstones and engraved 650 new headstones in FY 
2011. Work also is required in and around the plot areas to improve the 
horizontal surfaces and associated drainage. And we completed a 
comprehensive accessibility study at our 11 cemeteries in France. 
Additional studies will be conducted at our other sites while projects 
are developed to correct deficiencies identified in France.
    Maintaining our monuments and cemeteries is the Commission's core 
mission and top priority. But we also have a responsibility to tell the 
stories of those we honor. To improve this program, we expect to award 
three new visitor center projects this year, and we have other projects 
in design to renovate or modestly expand existing visitor facilities.
    Manila American Cemetery is our largest cemetery, which honors 
nearly 25 percent of the 225,000 individuals honored at ABMC sites 
worldwide, and our only commemorative cemetery in the Pacific. A master 
plan was funded in FY 2011 to evaluate the need for facility upgrades, 
assess infrastructure priorities, and address the Commission's 
interpretive program. The master plan is not yet complete, however, 
early indications reveal that the Commission needs to address serious 
requirements in FY 2013: a new perimeter wall is needed to address 
serious encroachment and boundary issues and the design of our quarters 
which are deficient in structure and impacted by new high-rise 
construction.
    Additionally, three memorials in the Pacific--Cabanatuan in the 
Philippines, Guadalcanal in the Solomon Islands, and the Honolulu 
Memorial--require much work to bring them up to standard.
    Our memorial cemeteries are completed works of art. As we perform 
our work--be it routine maintenance, restoration, replacement, or new 
construction--we are sensitive to the Commission's responsibility to 
preserve the historic fabric of our sites. New interventions must be 
carefully planned in keeping with their status as important national 
heritage assets.
    The essence of our mission does not change from year to year: (1) 
keep the headstones white; (2) keep the grass green; and (3) tell the 
story of those we honor. We are a small agency--about 400 people in 
total--but our people remain committed to executing those objectives.

                                 <F-dash>
                Prepared Statement of Raymond C. Kelley
    MR. CHAIRMAN AND MEMBERS OF THIS COMMITTEE:
    On behalf of the more than 2 million members of the Veterans of 
Foreign Wars of the United States and our Auxiliaries, the VFW would 
like to thank this Committee for the opportunity to present our views 
on our National Cemeteries.
    The Department of Veterans Affairs (VA) National Cemetery 
Administration (NCA) currently maintains more than 3 million graves at 
131 national cemeteries in 39 states and Puerto Rico. Of these 
cemeteries, 71 will be open to all interment; 19 will accept only 
cremated remains and family members of those already interred; and 41 
will only perform interments of family members in the same gravesite as 
a previously deceased family member. The NCA also maintains 33 
soldiers' lots and monument sites. All told, the NCA manages 20,021 
acres, half of which are developed. \1\
---------------------------------------------------------------------------
    \1\ Department of Veterans Affairs National Cemetery Administration 
Fact Sheet (July, 2010). http://www.cem.va.gov/pdf/facts.pdf
---------------------------------------------------------------------------
    Today, there are nearly 22.4 million living veterans who have 
served our Nation as far back as World War II and every conflict and 
peacetime era since. However, it is estimated that approximately 
653,000 veterans died in 2010. VA interred more than 111,000 veterans 
in 2010 and they expect that number to slowly climb and peak at 116,000 
in 2013 and maintain that level through 2015. VA expects to maintain 
400,000 more graves during that same period of time. \2\
---------------------------------------------------------------------------
    \2\ FY 2011 Budget Submission Summary Vol. III. P. 1A-6
---------------------------------------------------------------------------
    The most important obligation of the NCA is to honor the memory of 
America's brave men and women who served in the armed forces. 
Therefore, the purpose of these cemeteries as national shrines is one 
of the NCA's top priorities. Many of the individual cemeteries within 
the system are steeped in history, and the monuments, markers, grounds, 
and related memorial tributes represent the very foundation of the 
United States. With this understanding, the grounds, including 
monuments and individual sites of interment, represent a national 
treasure that deserves to be protected and cherished.
    The VFW would like to acknowledge the dedication and commitment of 
the NCA staff who continue to provide the highest quality of service to 
veterans and their families.
    To keep a finger on the pulse of how well they are serving veterans 
across the agency, each year VA publishes a Performance and 
Accountability Report. There are 16 performance measures that fall 
under NCA. These measures range from how quickly gravesites are marked 
after interment to how many people would recommend a national cemetery 
to a veteran in need. More than half of these measures come very close 
or perform better than their strategic targets.
    There are four of these performance measures that the VFW would 
like to discuss today. First is accessibility to veterans' cemeteries. 
NCA has made a commitment to provide burial options for 94 percent of 
all veterans living in the United States. They are currently at 89 
percent. Their success in providing these options is based on them 
having a solid metric that account for where there is or will be burial 
needs and where NCA doesn't have an accessible cemetery. In FY 2012, 
NCA reduced the veteran population threshold from 170,000 veterans to 
80,000 veterans living within a 75 mile radius as a new guideline to 
establish cemetery placement. This will allow NCA to provide National 
Cemetery access to an additional 500,000 veterans.
    NCA has also been investing in state cemetery grants program, and 
between 1998 and 2010, 75 state veterans' cemeteries have been 
established. The NCA is currently holding 104 state cemetery grant 
applications, 61 of which the state or Nation or Tribe has committed 
their portion of the funds. The NCA will have to invest $152 million in 
architectural and engineering funds to meet their obligated match for 
these state cemeteries. This is cost effective way to ensure that areas 
that don't contain the threshold of veterans will have burial options. 
These states have made a commitment to veterans; VA must match that 
commitment and fund these cemeteries as quickly as possible. The VFW, 
in partnership with the Independent Budget, is requesting 
appropriations of $51 million for FY 2013 to accommodate the grant 
program.
    NCA latest strategy to provide access to veteran's cemeteries is to 
purchase land from private cemeteries in rural areas where there are 
less than 25,000 veterans in 75 radius, and who don't have a national 
or state cemetery option. This will provide burial options for an 
estimated 136,000 veterans. There are eight states that currently meet 
this criteria; Idaho, Montana, Utah, Maine, North Dakota, Wisconsin, 
Wyoming and Nevada. These are all very positive steps and as they move 
forward with closing these access gaps, Congress must be prepared to 
fund these projects.
    The next two performance measures can be combined. The percent of 
headstones, marker and niche covers that are clean and free of debris 
and the percent of headstones and marker that are at the proper height 
and alignment. These two measures represent the aesthetic appearance of 
our national cemeteries. In 2002, the Independent Study on Improvements 
to Veterans Cemeteries identified nearly 1,000 deficiencies nationwide 
that will need to be corrected to reach their goal of improve cemetery 
appearance. This is not a static number of deficiencies, as some 
deficiencies are fixed, others, due to climate and time, become in need 
of correction. A lack of funding has led to this decline in appearance.
    Over the past few years, NCA has done a commendable job of 
addressing these deficiencies by taking funds from its Operational and 
Maintenance budget, but targeted funding is the only way NCA will be 
able to reach its strategic goals. The goal for these two performance 
measures are 95 percent and 90 percent, however, they are currently at 
82 percent and 73 percent respectively. That is why the VFW, in 
partnership with the Independent Budget, believes that NCA's 
Operational and Maintenance budget should be increased by $20 million 
per year until their goals are reached. Currently, NCA estimates that 
$208 million will have to be invested to eliminate the appearance gaps.
    The fourth issue of concern is the capital infrastructure of NCA. 
The VFW believes NCA is a model administration, not only within VA but 
throughout the government. However, without proper resources it will 
continue to fall victim of VA's glaring concern, deteriorating 
infrastructure. Just like the rest of VA's infrastructure, NCA's 
buildings are deteriorating. Between 2010 and 2011, NCA's annual 
Facilities Condition Assessment (FCA) reported a 10 percent decline, 
from 84 percent to 74 percent in what is considered ``acceptable'' 
conditions for their structures. It will take an investment of more 
than $62.5 million to fill all the condition gaps that have currently 
been identified. To continue to put off repairing VA's infrastructure 
issues is irresponsible. VA and Congress must make a commitment to 
improve VA's infrastructure, and that commitment starts with increased 
funding.
    Mr. Chairman, this concludes my testimony and I will be happy to 
answer any question you, or the Committee may have.

                                 <F-dash>
                 Prepared Statement of W. Ashley Cozine
    Mr. Chairman, Members of the Subcommittee, thank you for the 
opportunity to testify before you this afternoon. I am Ashley Cozine, a 
third-generation funeral director in our family-owned mortuary that 
began operation in 1913. I began my career as a licensed funeral 
director in 1995. Currently we operate one mortuary, as well as a 
cemetery and crematory that we established in 1997. We serve 
approximately 350 families a year at our mortuary and employ 10-12. I 
currently serve on the Executive Board of the National Funeral 
Directors Association, and I am a past president of the Kansas Funeral 
Directors Association.
    I am testifying today on behalf of the more than 19,000 funeral 
directors and funeral service personnel who are members of the National 
Funeral Directors Association (NFDA). The average NFDA member is an 
independently owned and operated business with fewer than 10 employees 
and has been in the same family for over 60 years. NFDA is the leading 
funeral service organization in the United States, providing a national 
voice for the profession.
    NFDA has a great interest in the national cemetery system as our 
members provide both funeral and burial services for our veterans and 
their families on a daily basis. Every day funeral directors offer 
comfort and support to families who are dealing with the loss of a 
loved one. When a family is dealing with the loss of a veteran, funeral 
directors help the family organize a personalized funeral and burial 
that both celebrates the life of their loved one and honors their 
service to our country. The VA estimates that roughly 648,400 veterans 
died in the U.S. in 2011. Each one of these service men and women has a 
family or friends who grieved their loss, and in each case a funeral 
director helped ensure that every veteran received the care, honor, and 
dignity they earned because of their sacrifice for our country.
    According to the National Cemetery Administration, the VA 
maintained more than 3.1 million gravesites at 164 properties, 
including 131 national cemeteries and 33 other cemetery installations, 
in 2011. The National Cemetery Administration is to be commended for 
their service to our nation's veterans. In preparation for my testimony 
here today, NFDA conducted a simple e-mail survey of NFDA members to 
obtain firsthand experiences from our members in relation to veterans 
cemeteries. We asked that our members recount their experiences, 
including service, upkeep and areas for improvement. Overall, our 
members were highly complementary of the state of our veterans 
cemeteries. We received an almost unanimous response that our nation's 
national cemeteries operate efficiently, effectively, and with much 
compassion for those being buried there as well as their families. Our 
members have found the management and operation of these cemeteries to 
be courteous, flexible and accommodating to the needs of the funeral 
director and the family members of the deceased veterans.
    One funeral director from Clawson, Michigan, stated; ``I would 
estimate that we average 30 services annually at Great Lakes National 
Cemetery. I must say that the cemetery is an example of how all 
cemeteries should function. The members of the staff are courteous and 
competent. The grounds are beautifully maintained and the services are 
appropriate to honor those who have sacrificed so much for our freedom. 
Additionally, their family members who are interred there are treated 
with the same respect and reverence as the veterans. Surviving family 
members are also shown every courtesy and kindness. We recommend Great 
Lakes National Cemetery to all our veterans' families who are in need 
of cemetery space both pre-need and at-need. It is a pleasure working 
with Great Lakes Cemetery. On a scale of 1 to 10, I rate them a 10 
plus.''
    An NFDA member from Illinois stated: ``We use Abraham Lincoln 
National Cemetery in Elwood, Illinois, and they do a great job. The 
cemetery is clean and the staff very professional. I have nothing but 
good things to say about our experience with them.''
    A funeral director from Georgia stated: ``The veterans cemetery 
that we have in Milledgeville is a state and national cemetery 
together. We have a great relationship with the employees here and they 
have gone above the call of duty. The director here is retired from the 
Army so he brings some great skills to the table. If we have a question 
regarding a veteran he is always more than willing to jump in and help 
with whatever is asked. If the grounds keeper needs extra help the 
director and asst. director will change clothes and grab a shovel or 
lawn mower and start work.''
    According to the National Cemetery Administration, 89 percent of 
veterans are served by a burial option within a reasonable distance (75 
miles) of their residence. NFDA believes the family of every deceased 
veteran should have easy and convenient access to a national cemetery. 
While NFDA members believe that the National Cemetery Association has 
improved access to veterans cemeteries, some of our members are still 
experiencing accessibility issues because of distance.
    One NFDA member from Tennessee stated: ``We do not have a VA 
cemetery here in Jackson. One in Memphis (70 miles) and two in 
Nashville (120 miles). Therefore we do not go to VA cemeteries a lot. 
But I will say the one in West Nashville and the one in Memphis are 
first class. They do an excellent job on all fronts. Very respectful, 
very professional, very well kept, etc....Due to the distance we just 
don't go a lot.''
    A funeral director from New Jersey also commented on distance 
issues: ``The closest VA cemetery to us in Northern NJ is a state 
veterans cemetery about an hour and a half away. The National VA 
cemeteries we seldom go to as they are located in the greater New York/
Long Island area and are a challenge to get to and even a longer ride. 
The dignity and care received at the New Jersey veterans cemetery in 
Wrightstown mentioned above is fine. The only concern is one of 
scheduling as it is very popular among New Jersey residents and 
sometimes it can take an extra day or two to secure one of the 
available time slots to have the interment.''
     Additionally, a funeral director from Maryland stated: ``Garrison 
Forest Veterans Cemetery is the one that our firm uses the most, by 
far. Their operation is very efficient. However, demand is simply so 
great that we are often forced to wait a week or more for burial from 
the time contact is first made. And since their policy is to not allow 
families out to the actual burial sites for the interment service, all 
services run through one chapel. So as long as their policies and 
procedures remain in place, there really is no feasible way to increase 
the number of interments on a daily or weekly basis. Unfortunately, 
this disrupts what the family often has in mind as the natural 
progression of the service for their loved one. They either wait until 
the date of burial to have a service, in which case it may not be 
possible to have a viewing the day before. Or they go ahead with 
viewing and funeral service as they choose, but then have to wait and 
have another service, usually with just family, a week later. And since 
it is a military service at the cemetery, it is an event that they 
would have liked many to witness.''
    I use these examples from around the country to illustrate that our 
national cemetery system and its operation and management from our 
members' standpoint is of the highest caliber. Most of my experience 
has been with the Kansas Veterans Cemetery in Winfield, Kansas. This 
cemetery is under the direction of the Kansas Commission of Veterans' 
Affairs. In my experience, it is a well-run and efficient cemetery 
operation. The staff is very friendly and helpful in assisting our 
mortuary and the families we are serving. The grounds and facilities 
are well maintained. It is a good option for veteran families that do 
not already have cemetery property. I have also had the opportunity to 
work with Ft. Leavenworth and Ft. Scott National Cemeteries, albeit on 
a much more limited basis. These two cemeteries are several hours away 
from Wichita, so there are fewer families that choose these options. 
However, my experience has been positive with them as well. They appear 
to be efficiently operated and are beautifully maintained. The families 
served seem to be very appreciative of their services. I have not had 
any negative feedback in my dealings with them.
    While most of our members are satisfied with the services provided 
to them by the national cemeteries, there are some improvements that 
could be made to improve the service funeral directors can provide the 
families of our nation's veterans. In February of 2012, NFDA conducted 
a non-scientific study of our members to assess whether they are 
experiencing difficulties when dealing with the Department of Veterans 
Affairs (DVA) funeral reimbursement policies. Approximately half of the 
respondents receive reimbursements from the DVA in nine months or less 
while it takes 10 months or longer for the remaining half of 
respondents to receive reimbursement. In fact, 60 percent of 
respondents stated the VA owes them for outstanding veterans' funerals 
that are over six months past due. Of the 60.9% of members who stated 
the VA still owes them for outstanding veterans' funerals that are over 
six months past due, the average amount owed is $5,951. However, one 
funeral director reported that the DVA owes him $128,355.
    Also, I would be remiss if I did not mention that there are 
hundreds of funeral directors in Washington, DC today. My colleagues 
and I have come to Capitol Hill to support our nation's veterans by 
working for passage of H.R. 2051, a bill to Repatriate Unclaimed 
Veterans' Cremated Remains.
    Currently, many funeral homes across the country are holding the 
cremated remains of veterans that have been unclaimed by family members 
or relatives. NFDA strongly believes that these remains should be 
properly identified and given the proper burial or interment along with 
the appropriate military honors. The issue here is how best to identify 
these remains and see that they receive a proper burial or interment in 
a recognized veterans cemetery with appropriate military honors. In 
that regard, legislation has been introduced to repatriate unclaimed 
cremated remains of veterans held by funeral directors.
    H.R. 2051 would direct the Secretary of Veterans Affairs to work 
with veteran's service organizations and other groups in assisting 
funeral homes in possession of unidentified or abandoned remains in 
determining if the remains are that of a veteran eligible for burial at 
a National Cemetery. If remains are determined to be that of an 
eligible veteran, there is no next of kin, and there are no available 
resources to cover burial and funeral expenses, then the Secretary of 
Veterans Affairs shall cover the cost of burial. In addition, the bill 
would call on the Secretary of Veterans Affairs to establish a public 
database of the veterans identified in this project. NFDA strongly 
supports this legislation, and encourages Congress to pass this 
important legislation.
    Mr. Chairman and distinguished members of the Committee, on behalf 
of the members of the National Funeral Directors Association, I want to 
conclude my testimony today by thanking you for the opportunity to 
testify on behalf of NFDA. I hope my testimony has been helpful and I 
will be happy to answer any questions you may have.

                                 <F-dash>
                  Prepared Statement of Melissa Lofaso
    Mr. Chairman and Members of the Subcommittee:
    I am pleased to have the opportunity to submit this testimony on 
behalf of the families of America's fallen heroes and the program that 
compassionately cares for them, the Tragedy Assistance Program for 
Survivors (TAPS). TAPS is the national organization providing 
empathetic care for all those who are grieving the death of a loved one 
who died while serving in the Armed Forces. TAPS provides peer-based 
emotional support; grief and trauma resources and information; survivor 
seminars, retreats, and ``Good Grief Camps''; casualty case work 
assistance; and the 24/7 National Military Survivor Helpline, all 
provided to survivors at no cost to them. We do all of this without 
financial support from the government because TAPS is funded entirely 
by the generosity of the American people.
    TAPS was founded in 1994 by a group of surviving military families 
following the deaths of their loved ones in a military plane crash. 
Since its founding, TAPS has offered comfort and care to more than 
35,000 survivors and countless caregivers, casualty officers, 
chaplains, and civilian supporters. The journey through grief following 
a military death can be isolating and the long-term impact is often not 
understood in our society. Research tells us that on average, it takes 
a person experiencing a traumatic loss five to seven years to reach his 
or her ``new normal.'' \1\
---------------------------------------------------------------------------
    \1\ Social Work in Health Care, 50:543-563, 2011 Copyright  Taylor 
& Francis Group, LLC ISSN: 0098-1389 print/1541-034X online DOI: 
10.1080/00981389.2010.532050 Operation Iraqi Freedom/Operation Enduring 
Freedom: Exploring Wartime Death and Bereavement, JILL HARRINGTON 
LAMORIE, DSW, LCSW, University of Pennsylvania School of Social Policy 
& Practice, Alexandria, Virginia, USA
---------------------------------------------------------------------------
    TAPS has extensive contact with the surviving families of America's 
fallen military servicemembers, making TAPS uniquely qualified to 
comment on issues affecting the survivors left behind. Since 1994, our 
24/7 resource and information helpline has received approximately 
184,260 calls from survivors. In 2010, TAPS received an average of 68 
calls per day from military survivors and placed 264 calls per day to 
survivors. TAPS received 2,864 newly bereaved military survivors in a 
year and received 10,649 calls to our 24/7 resource and information 
helpline. In 2010, TAPS placed approximately 63,452 calls to survivors 
to let them know they were not alone, follow up on a case inquiry, or 
discuss needed services and support.
    One hundred percent of our 42 professional staff members are 
survivors of a fallen military hero, military family members or 
veterans. Ninety-eight percent of our total workforce are volunteers, 
including active military servicemembers, who have donated 48,000 hours 
of their time in the last year to be trained in how to companion a 
child who is grieving and volunteer their time to support the children 
left behind by our fallen.
    My name is Melissa LoFaso and I am the national director for care 
coordination at TAPS and the proud wife of active duty Navy PO1 Edward 
Porrey. As a professionally trained clinical mental health counselor 
specializing in grief and trauma, my job involves assisting families of 
our fallen military who are often deeply grieving a traumatic loss and 
encountering bureaucracies and paperwork that are challenging to 
navigate in this condition.
    I routinely help families file paperwork requesting a correction 
for a headstone, assist families in moving a loved one to a VA cemetery 
after burial in another location, and bring family concerns to the 
attention of VA officials so they can address them. I have supported 
many surviving families of our fallen military and veterans in 
communicating with their local VA cemeteries and with the National 
Cemetery Administration.
    TAPS has been asked by the Subcommittee to provide written comments 
on its views about national cemeteries administered by the Department 
of Veterans Affairs and make recommendations for improvement. In 
response to the Committee's request, my testimony will be segmented 
into two sections: (I) feedback about the national cemeteries that are 
administered through the VA's National Cemetery Administration and (II) 
recommendations for improvements.
I. Feedback about the national cemeteries that are administered through 
        the VA's National Cemetery Administration
    Our perspective at TAPS is anchored in our expertise - which is 
providing emotional support to surviving families of our fallen 
military. My role is to help facilitate resolutions to concerns that 
are raised by a family, while addressing the emotions that can happen 
when grieving. Whether it is a mis-marked headstone, a marker that has 
been moved without the family's knowledge or awareness, or some other 
type of concern, we believe that resolving these issues quickly, in 
close coordination with VA leadership at the National Cemetery 
Administration (NCA), helps survivors heal and find peace.
    Since our founding in 1994, TAPS has worked cooperatively with the 
National Cemetery Administration administered by the Department of 
Veterans Affairs. The national cemetery system is the ultimate metaphor 
for the TAPS model of honoring the service and sacrifice of all those 
who died while serving in the Armed Forces, regardless of where or how 
they died. The national cemetery system - with its pristine cemeteries 
and identical headstones - truly honors all who have served and died 
and are part of our nation's legacy of service and sacrifice.
    NCA inters servicemembers and veterans, side by side, regardless of 
rank, cause of death, or station in life. Service is an equalizing 
factor in the VA cemetery system, and that is commendable, at a time 
when the military still presents different gold star pins based on 
cause of death and others reserve certain honors only for the families 
of those who are killed in action. The VA cemetery system recognizes 
all who have served their country and died and we applaud this spirit 
of equality and honor.
    We regularly file requests to help families address errors on 
headstones and grave markers, talk with VA staff about family concerns, 
and offer feedback and family input to VA officials and staff. TAPS 
attends the quarterly briefings conducted by the National Cemetery 
Administration with veterans service organizations, where we are 
updated on activities within the cemetery system and can offer 
feedback.
    In one case, TAPS contacted the local VA cemetery because a family 
was upset that their loved one's gravestone had an error. We brought 
the matter to the attention of the National Cemetery Administration, 
which had a new stone cut immediately, express-shipped it, and 
installed it within 48 hours. The family was overjoyed to see their 
problem addressed and felt they were able to honor their son.
    That case illustrates a core point I would like to make - 
addressing concerns raised by surviving families promptly and with 
honesty - can go a long way to correcting problems. In this case I just 
mentioned - a staff member from the VA listened to the family, admitted 
that a problem had happened with the grave stone and took proactive 
steps to address the family's concerns.
    In a more recent case, a family's Marine son died in a public 
suicide in 2010. His family wanted for his headstone to mention his 
service in Iraq and Afghanistan, and was upset that his tours of duty 
to these war zones were not included on his grave marker. I contacted 
Gina White at the National Cemetery Administration about the family's 
concern, and she immediately adjusted the headstone to reflect this 
combat service and honor this Marine, regardless of the circumstances 
of his death.
    Having this change made so quickly and with such professionalism 
changed the tone of the family's grief and allowed them to focus on 
healing, rather than on their frustration with red tape. By working in 
partnership with the VA, TAPS is often able to assist families in their 
healing.
    In another case, a widow went to visit her husband's memorial 
marker at the National Memorial Cemetery of the Pacific in Hawaii. She 
was accompanied by their 15-year-old son. When they arrived his stone 
was missing, and they had to search to locate it. When the family asked 
the cemetery staff why the stone had moved, they were told that they 
``must be mistaken,'' and that the stone had not moved. The family had 
photos demonstrating that the marker had been moved.
    Eventually, the family found out that the memorial marker had been 
moved by contractors five years earlier during a renovation project at 
the cemetery. The widow commented, ``Thank God he is not buried there - 
they are `renovating' several other sections and I pray they do not 
relocate any of those markers away from their graves. What a nightmare 
as I was told by officials that `I did not remember where it was', 
`that NEVER happens.''' She also said, ``This should never happen to 
any one - even if it is, as they said, ``Only a memorial marker.'' How 
disrespectful and hurtful.''
    For a family that has only a memorial marker to visit to remember 
and honor their loved one, a memorial marker's location is just as 
important as a gravesite. It is not ``just a memorial marker.'' This 
case illustrates a second point I would like to make. When problems 
arise, it is always better to be honest with surviving families, than 
to avoid telling the truth. Over and over, we have seen families get 
upset and emotional, not when they are told difficult things, but when 
they are led to believe that someone is hiding information from them 
and not telling them the truth.
    Sometimes people assume that grieving families are fragile and 
cannot handle difficult information or news that may be upsetting. 
These people fail to realize that these families have already gotten 
the worst news - which is that their loved ones have died and are not 
coming home. If they are given information in an honest and 
compassionate way, even if it is disturbing or difficult information, 
they often will respond with understanding. Offering compassionate 
response to survivor concerns is an effective strategy for addressing 
their needs.
    In another case, a widow whose husband died by suicide went to the 
Fort Rosecrans National Cemetery to visit her husband's niche at the 
columbarium. His niche cover had an error and she was surprised. She 
asked the cemetery staff to open the niche. His remains were there, but 
the urn containing them was broken and open. The widow felt that the 
cemetery staff talked down to her because of her youthful appearance. 
She requested that the niche cover be corrected, and that the urn be 
replaced. She shared her concerns with TAPS and asked TAPS to get 
involved. TAPS called the National Cemetery Administration about the 
situation and we are hopeful a resolution will be reached shortly.
    This is another case where had cemetery staff on the ground 
responded differently to concerns raised by a family, the situation 
could have been resolved quickly and with less pain to the family. A 
new urn could have been put into place immediately, and a new niche 
cover ordered. We continue to work with the VA to facilitate a solution 
for this family.
    It should be noted that most of the families TAPS works with are 
very pleased with the level of care and service they receive from the 
National Cemetery Administration. When TAPS has received negative 
feedback about the National Cemetery Administration, it has been in 
cases like the two cited above. Thankfully, these cases are few and far 
between, but they are important reminders of the value of staff 
training.
II. Recommendations
    Based on its experiences working with surviving families of our 
fallen military since 1994, TAPS offers the following recommendations 
for improving the VA's national cemetery system.
    (1) Provide sensitivity training for local VA cemetery staff. TAPS 
has conducted training for military casualty assistance officers in all 
services, chaplains, the USO volunteers at the Dover Port Mortuary, and 
other volunteers in partner organizations on how to provide 
compassionate and empathetic care for surviving military families. TAPS 
welcomes the opportunity to provide this training, at no cost, to VA 
cemetery staff who come in contact with grieving families.
    (2) Encourage VA cemetery staff to connect with TAPS when emotional 
issues arise, so we can help them facilitate the solution the family 
seeks, while addressing the family's bereavement needs.
    (3) Encourage VA cemetery staff to provide accurate and clear 
information to families from the start. For the family of a fallen 
servicemember or deceased veteran who is grieving, just visiting the 
cemetery is a major commitment of emotional energy and triggers their 
feelings and emotions about the death. This is when we see issues that 
could have been easily fixed, become emotionally-wrenching and 
disruptive of the family's grief journey. Even if families have to be 
told difficult information or be informed about a mistake that has been 
made, most families appreciate being treated with honesty, clarity, and 
compassion.
Conclusion
    Over the past year and a half, families of our fallen military and 
veterans have endured a series of major scandals and revelations 
through the news media about mis-management and mistakes at Arlington 
National Cemetery, the Dover Port Mortuary and the National Cemetery 
system administered by the VA. For some families, their trust in our 
nation's commitment to honor the service and sacrifice made by their 
loved ones has been shaken.
    It is our perspective that we must work together to find a way 
forward beyond these scandals surrounding the care of our fallen 
military servicemembers and veterans. It will take a community of care 
and response to support surviving families of our fallen military and 
veterans. As the only national organization providing comfort and care 
to all who are grieving the death of someone who served in the Armed 
Forces, TAPS is ready and willing to work collaboratively with the 
military, the VA and other partners, as together we provide better care 
and more compassionate support to the families of our nation's fallen 
heroes.
    Thank you.
Executive Summary of Melissa Lofaso
    Introduction
    Because of our role in caring for thousands of families of 
America's fallen military since 1994, the Tragedy Assistance Program 
for Survivors (TAPS) is uniquely qualified to comment on this matter. 
In my role at TAPS, I have worked with several families to communicate 
their concerns with the VA.
    I. Opinion on the Upkeep and Maintenance of the National Cemetery 
Administration and Cemetery System Administered by the VA
    The Tragedy Assistance Program for Survivors (TAPS) is the national 
organization providing empathetic care for all those who are grieving 
the death of a loved one who died while serving in the Armed Forces. 
Our perspective at TAPS is anchored in our expertise - which is 
providing emotional support to surviving families of our fallen 
military.
    It should be noted that most of the families TAPS works with are 
very pleased with the level of care and service they receive from the 
National Cemetery Administration. We regularly file requests to help 
families address errors on headstones and grave markers, talk with VA 
staff about family concerns, and offer feedback and family input to VA 
officials and staff. Four case anecdotes highlighting experiences of 
surviving families with the VA cemetery administration system are 
highlighted in this testimony and provide insight. Addressing concerns 
raised by surviving families promptly and with honesty - can go a long 
way to correcting problems.
    II. Recommendations for Improvements in VA Cemetery Operations
    (1) Provide sensitivity training for local VA cemetery staff. TAPS 
has conducted training for the USO volunteers at the Dover Port 
Mortuary, military casualty assistance officers in all services, 
chaplains, and other volunteers in partner organizations on how to 
provide compassionate and empathetic care for surviving military 
families. TAPS welcomes the opportunity to provide this training, at no 
cost, to VA cemetery staff who come in contact with grieving families.
    (2) Encourage VA cemetery staff to connect with TAPS when emotional 
issues arise, so we can help them facilitate the solution the family 
seeks, while addressing the family's bereavement needs.
    (3) Encourage VA cemetery staff to provide accurate and clear 
information to families from the start. For the family of a fallen 
servicemember or deceased veteran who is grieving, just visiting the 
cemetery is a major commitment of emotional energy and triggers their 
feelings and emotions about the death. This is when we see issues that 
could have been easily fixed, become emotionally-wrenching and 
disruptive of the family's grief journey. Even if families have to be 
told difficult information or be informed about a mistake that has been 
made, most families appreciate being treated with honesty, clarity, and 
compassion.

                                 <F-dash>
                        Questions for the Record
    Questions from Honorable Jon Runyan, Chairman, Subcommittee on 
Disability Assistance and Memorial Affairs to AMVETS:
    Question 1: Do you believe (IB/AMVETS) the NCA has sufficient funds 
to carry out its mission?
    Answer: While AMVETS analysis was slightly higher than VA's request 
for the National Cemetery Administration, VA principals have testified 
that the President's budget request is sufficient to ensure that NCA 
maintains a high level of Veteran service and continues to be good 
stewards of national cemeteries.
    Question 2: ``Pertaining to your statistical analysis of the grave 
sites that we're going to need . . . .but as the Under Secretary said 
in his testimony, they like to keep them close to home, on a more 
regional basis.'' Where are we lacking in those abilities? ``And 
obviously yours was nationwide, and I'm sure there's some areas that, 
we could look into, where we could really give direction to the 
Cemetery Administration to really look at that you can anticipate 
through your VSOs and knowing where people live and where they reside, 
and where they would like to be buried. So I'd appreciate if you could 
get that to us.''
    Answer: Based on the National Cemetery Administration's (NCA) FY 
2013 Budget Submission, NCA is demonstrating it is working diligently 
to increase access to burial options for unserved Veterans from 75% in 
FY 2004 to 90% in FY 2013. The NCA's FY 2015 strategic goal is to serve 
95% of Veterans with a burial option.
    In recognition of Veteran's growing burial needs, in FY 2011, NCA 
revised the Veteran population threshold needed to construct new 
national cemeteries from 170,000 to 80,000 within 75-miles of a 
proposed site. This new policy will result in the establishment of five 
new national cemeteries to serve an additional 500,000 Veterans. The 
NCA is also establishing five columbarium-only cemeteries to better 
meet the needs of urban Veterans. To meet the needs of rural Veterans, 
VA has developed a new policy to provide burial options for Veterans 
who reside in sparsely populated rural areas where the Veteran 
population is unserved by either a national or state Veterans cemetery.
    AMVETS believes that NCA is cognizant of the needs of Veterans and 
their families, and is taking proactive steps to ensure that burial 
services are strategically provided to serve our Veterans' needs. We 
will continue to canvass our members and provide any feedback to NCA so 
they are aware of Veterans' issues or concerns.

                                 <all>

</pre></body></html>
